<html>
<title> - LEGISLATIVE HEARING ON H.R. 4103, TO DIRECT THE SECRETARY OF THE INTERIOR TO TRANSFER CERTAIN PUBLIC LANDS IN NATRONA COUNTY, WYOMING, TO THE CORPORATION OF THE PRESIDING BISHOP, AND FOR OTHER PURPOSES.</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]





H.R. 4103, TO DIRECT THE SECRETARY OF THE INTERIOR TO TRANSFER CERTAIN 
  PUBLIC LANDS IN NATRONA COUNTY, WYOMING, TO THE CORPORATION OF THE 
               PRESIDING BISHOP, AND FOR OTHER PURPOSES

=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              May 4, 2002

                               __________

                           Serial No. 107-113

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


79-434              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
      DONNA M. CHRISTENSEN, Virgin Islands Ranking Democrat Member

Elton Gallegly, California            Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Eni F.H. Faleomavaega, American 
 Joel Hefley, Colorado                   Samoa
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina,                        Mark Udall, Colorado
  Vice Chairman                      Rush D. Holt, New Jersey
Mac Thornberry, Texas                James P. McGovern, Massachusetts
Chris Cannon, Utah                   Anibal Acevedo-Vila, Puerto Rico
Bob Schaffer, Colorado               Hilda L. Solis, California
Jim Gibbons, Nevada                  Betty McCollum, Minnesota
Mark E. Souder, Indiana
Michael K. Simpson, Idaho
Thomas G. Tancredo, Colorado


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 4, 2002......................................     1

Statement of Members:
    Cubin, Hon. Barbara, a Representative in Congress from the 
      State of Wyoming...........................................     4
        Prepared statement of....................................     6
    Faleomavaega, Hon. Eni F.H., a Delegate in Congress from 
      American Samoa.............................................     7
        Prepared statement of....................................    10
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     1
    Rehberg, Hon. Dennis R., a Representative in Congress from 
      the State of Montana.......................................    12

Statement of Witnesses:
    Dobos, Barbara, Casper, Wyoming..............................    20
        Prepared statement of....................................    21
    Jolley, John, Casper, Wyoming................................    39
        Prepared statement of....................................    40
    Kennell, Edna, Casper, Wyoming...............................    47
        Prepared statement of....................................    48
    Kimball, Katharine, Director, External and Intergovernmental 
      Affairs, U.S. Department of the Interior...................    64
        Prepared statement of....................................    66
    Larsen, Lloyd Charles, Lander, Wyoming.......................    54
        Prepared statement of....................................    56
    Lorimer, Scott, Riverton, Wyoming............................    13
        Prepared statement of....................................    14
    Parady, Hon. Fred, Wyoming State Legislature, Rock Springs, 
      Wyoming....................................................    25
        Prepared statement of....................................    27
    Underbrink, Lee, Casper, Wyoming.............................    36
        Prepared statement of....................................    38

 
   LEGISLATIVE HEARING ON H.R. 4103, TO DIRECT THE SECRETARY OF THE 
 INTERIOR TO TRANSFER CERTAIN PUBLIC LANDS IN NATRONA COUNTY, WYOMING, 
  TO THE CORPORATION OF THE PRESIDING BISHOP, AND FOR OTHER PURPOSES.

                              ----------                              


                         Saturday, May 4, 2002

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                            Casper, Wyoming

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:10 a.m., in 
the Oscar ``Swede'' Erickson Gymnasium, Casper College, Casper, 
Wyoming, Hon. George Radanovich [Chairman of the Subcommittee] 
presiding.

STATEMENT OF THE HON. GEORGE P. RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Good morning. My name is George Radanovich. 
I'm a Member of Congress from California and Chairman of the 
Subcommittee of National Parks and Recreation and Public Lands, 
which is a Subcommittee of the Committee on Resources in 
Washington, D.C. Can everybody hear me OK?
    Good morning. Is that better? My name is George Radanovich. 
I'm Member of Congress from California. I represent California 
and the Yosemite National Park, and I'm Chairman of the 
National Parks Subcommittee of the Committee on Resources. And 
I want to welcome everybody here today to our hearing, and just 
kind of wanting to go over a couple of ground rules about how 
the hearing is going to work, what a hearing is and what it is 
not, and then go and probably read the same thing in my 
official statement, but I just want to make sure everybody's 
clear how this hearing is going to proceed today.
    This is a hearing that complies with the rules of the House 
of Representatives. And there are certain things that we do in 
order to make sure that everybody's views are entered into the 
Congressional Record. I think that's the whole purpose of a 
hearing, is to make sure that things get into the Congressional 
Record about any particular issue.
    A congressional hearing is quite different from a town hall 
meeting, in that there's not a lot of unorganized public input. 
So a couple things that we would ask the audience to refrain 
from doing would be cheering or applauding, or rooting for your 
side or things like that because again the purpose is to really 
get the information down into the record, so I would ask 
everybody's indulgence on that.
    And we are going to have three panels of witnesses, and 
then after that, as a special request from Congresswoman Cubin, 
we will, at the end of the hearing, open up the floor to give 
people the opportunity to speak.
    Unfortunately, people have airplane tickets, planes to 
catch. My son has his birthday party in Washington, D.C., so 
I've got to get back for that. He's going to be 4 years old. 
And I believe there's another event in this gymnasium.
    So we're going to allow time for public input. They're 
going to have to be statements of 1 minute each, and hopefully 
we can at least have 45 people to come up and make some 
statements. But, again, what we're really focusing on is 
getting all aspects of the issue in the Congressional Record, 
and we try to organize our formal witnesses to make sure that 
happens.
    And I think that you'll see we have a broad perspective 
of--broad interest of witnesses that should give every 
perspective of this issue, and that will be the point of the 
meeting.
    So if you'll indulge me, I will make my opening statement, 
and then we'll get on to our witnesses.
    I want to thank you for coming to the Subcommittee on 
National Parks and Recreation and Public Lands. I want to thank 
everybody for being here this morning. And before we get 
started, it's taken a tremendous amount of work putting this 
hearing on, and I appreciate the interest that's shown by the 
number of people who turned out for the hearing today. I want 
to make it very clear this is an official congressional 
hearing, it's not a town hall meeting, and consequently it will 
operate differently than other public meetings that you have 
attended in the past. In order to clear up any confusion about 
how congressional hearings are conducted, I'm going to take a 
little bit of time to explain a bit more of the process.
    Because this congressional hearing--Because this is a 
congressional hearing, we have to abide by certain rules of the 
Committee of the House of Representatives. So we would ask that 
there be no applause of any kind, or any kind of demonstration 
or outburst with regard to anybody's testimony.
    It's important that we respect the decorum and rules of the 
Committee and House of Representatives. This requires that the 
level of discourse on all sides be respectful.
    Moreover, it is simply impossible to have everybody who 
would like to testify as a witness do so. However, there has 
been a concerted effort to include witnesses both in favor of 
and against the legislation.
    In addition, we will hear today from a witness from the 
Department of Interior. That witness will represent the views 
of the Department, which includes BLM, Bureau of Land 
Management.
    Testimony is limited to 5 minutes. A more comprehensive 
statement is submitted by these witnesses for the record.
    This is consistent with all of the legislative hearings 
that are held in Washington, D.C. One additional note before we 
begin as well, at the conclusion of the final panel of 
witnesses, we will end this hearing and take some comments from 
the members of the audience. And while doing so in a 
congressional hearing is very unusual, it was felt that due to 
the great interest on this issue from the State of Wyoming, 
that will provide an additional opportunity for the public to 
voice their opinion.
    The time that would be allotted to this activity will 
depend upon the time taken up by this hearing process. Some 
have complained about the short time allotted to speak. Again, 
I need to remind everybody that this is not a town hall 
meeting, so that this may be different than public meetings 
that you may have attended in the past, and due to the great 
number of people who would like to comment on this issue, we 
will have to insist that speakers are limited to 1 minute 
apiece.
    I also need to make everybody aware that there's a prior 
reservation here in the gym following this hearing, and some 
Members of Congress attending this hearing are from out of town 
and need to get back to their communities.
    So if--I think I've covered everything. I'm going to get 
into a short discussion on the substance of the bill and then 
we'll begin.
    We're here today to take testimony and comment on H.R. 
4103, the Martin's Cove Land Transfer Act. Following the 
introductions of this bill, Congresswoman Barbara Cubin called 
for a congressional hearing, field hearing in the state of 
Wyoming, so that the people would have the opportunity to fully 
comment on the merits of this proposal, and that's why we're 
here today.
    I understand that there are strong feelings on both sides 
of this issue, and some feel that the land would be better in 
the hands of the LDS Church. Some people feel that the land 
would be better in the hands if the LDS Church were to acquire 
the property, and that they would have a good record with 
regard to historical sites that they maintain. Others do not 
feel that way, express great concern with any land leaving 
Federal Government ownership, and have concerns about the land 
transfers, sales and exchanges in general.
    This hearing is very unusual for a number of reasons. Not 
only does it provide the opportunity to explore the pros and 
cons of this particular piece of legislation, but it also 
provides a clear record for the Subcommittee.
    There has been some confusion about a number of things that 
have been put forward both in the papers, and the public 
discourse that are factually inaccurate. The terms National 
Historic Site, National Landmark, and National Register have 
been used almost interchangeably as though they are the same 
thing. Some continue to assert that H.R. 4103 would sell a 
National Historic site. That is not accurate and needs to be 
corrected. I noticed that this is asserted in some of the 
testimony that has been submitted for today's hearing.
    I would point out that Martin's Cove is listed on the 
National Register of Historic Places. I am informed by the 
National Historic Registry there are 75,000 sites on the 
National Register across the country. It is not unusual at all 
for these sites to change ownership. In fact I'm told that tens 
of thousands of most sites are privately owned. In contrast, 
officially designated national historic sites are very few in 
number, operated as part of the National Park system and have 
very broad national significance, such as with Presidential 
homes.
    Once again, I'm hopeful this hearing will be a good 
opportunity to add meaningful testimony and comments to the 
legislative process today, for the consideration of the 
Subcommittee on National Parks, Recreation and Public Lands, 
and we will now turn to other Members of the Committee for any 
statements that they may have.
    So thank you very much for being here. I would like to 
recognize your fine Congresswoman from Wyoming, Barbara Cubin.

   STATEMENT OF THE HON. BARBARA CUBIN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF WYOMING

    Mrs. Cubin. Thank you, Mr. Chairman. First I would like to 
take time to thank all of the Members of the Committee here 
today. They have busy schedules just like mine. They could be 
at home with their families, they could be doing events in 
their own districts, but because there has been so much 
interest in and emotional difference in this issue, they chose 
to come to Casper and find out the facts for themselves.
    Just as you people out there are divided in what should be 
done, we down here are divided as well.
    Mr. Radanovich represents the 19th District in California, 
which includes most all of Fresno, Madera, Mariposa and Tulare 
Counties in California. His district isn't quite as big as 
mine, but it's a big one.
    His district also includes Yosemite National Park, so he 
and I have many concerns in regards to the proper management of 
National Parks. We worked together on a lot of different issues 
in this regard. He's a tireless individual, and I respect him 
as much as anyone I worked with.
    Next, I want to extend my warm thanks and welcome to our 
northern neighbor, Representative Denny Rehberg, who represents 
the entire state of California--excuse me, Montana.
    Yeah, the land--never mind.
    Denny Rehberg's is bigger than mine. He is a rancher by 
trade. He's no rookie at government, having served in the 
Montana State House, and was Montana's Lieutenant Governor for 
two terms. He does an excellent job in representing the people 
of Montana, and understands how independent people can disagree 
about the land that they love so much.
    I want to welcome also Representative Eni F.H. 
Faleomavaega, who has represented America Samoa in the Congress 
since 1989. I have traveled with Mr. Faleomavaega, and he is a 
wonderful Congressman. He's also served as a Lieutenant 
Governor of America Samoa as well as Deputy Attorney General in 
America Samoa. He served the United States valiantly in 
Vietnam, and spent 7 years in the 100 Battalion 442 Infantry 
Reserve Unit.
    Now, turning to the Administration's witnesses--one 
witness. She's not here yet, but I'll tell you a little bit 
about Kit Kimball. She is with the Department of Interior. Her 
plane is coming in, and she will be here in time to testify. 
We'll simply change the order in which the testimony occurs.
    She is the Department of Interior Director of External and 
Inter-governmental Affairs or better known as Secretary 
Norton's ``Ambassador to the West.'' She was previously the 
Executive Director of the Western Regional Council, and has 
worked hard to get her Denver office up and running to 
facilitate better lines of communication between Washington and 
the folks in the West.
    I sincerely thank all my colleagues for being here.
    The Subcommittee is here today, as George said, to gather 
as much information as possible about the bill that was 
introduced by Utah Congressman Jim Hansen, Chairman of the 
House Resources Committee, H.R. 4103, The Martin's Cove Land 
Transfer Act, the effects the bill will have on Wyoming 
specifically and public land generally.
    In an effort to ensure that the views and opinions of my 
constituents be heard, I requested the Resource Committee hold 
this hearing in Wyoming near Martin's Cove. I'd like to thank 
Chairman Hansen for allowing this official field hearing to 
take place today.
    From the very beginning Chairman Hansen insisted that this 
bill follow regular order and go through the regular 
legislative process. But in allowing this hearing today, he has 
gone one step beyond that in granting my wish for Wyoming 
people to be allowed to put their opinions in the official 
written record of the Congress of the United States.
    I am opposed to H.R. 4103 as it is currently written. 
However, I come to this hearing with an open mind. I look 
forward to a thoughtful and respectful dialog between those who 
support the bill and those who oppose it.
    As I stated earlier, we here at the table are divided on 
whether or not this bill is a good idea.
    Today we've assembled a well rounded panel of experts who 
will share their thoughts on the legislation before us. The 
witnesses are all Wyomingites and are members of the trails 
community, historians, Church members, a local government 
representative, and local activists who are opposed to the 
bill.
    Other groups have been asked to provide written testimony 
to the bill, and that will also be added to the record, 
including the Society of American Archeologists, the Sierra 
Club, and the Oregon California Trails Association. So you can 
see we want this to be as open and as fair as is reasonably 
possible.
    Also, I want to hear comments from the audience after the 
testimony from the panel is completed. The comments will be 
firmly limited to 60 seconds, and some reasons have been told 
for that, but also we are going to take a tour out to Martin's 
Cove and look at it, and see exactly what we are talking about 
when we make a vote on it.
    So it's most important that in order for the other members 
to catch their planes, that we limit the amount of time.
    If we had 2 days certainly we would love to hear from 
everyone. So we hope that if there are a group of people that 
all agree on a subject, that one of you will come to represent 
that view, and then your view can be on record as well.
    Wyoming needs a full and thorough vetting of this bill to 
find out what the benefits and disadvantages are if the Federal 
property is sold to the Church. I want to hear from all of 
these groups to determine if there are ways that Chairman 
Hansen's bill can be improved, or if it is simply a bill that 
does not benefit Wyoming.
    As everyone here is well aware, emotions have run high on 
this issue for several months. To me that means everyone cares 
about the issue greatly and want their views to be heard. Today 
we ensure that happens. However, it goes without saying that 
while emotions do run high on the issue, I would ask everyone 
participating to be respectful of one another's views.
    Finally, I want to thank the witnesses and the members of 
the audience for coming today. That's what Wyoming is all 
about, taking care of your own and participating in your own 
business.
    This will be a good forum to learn about Chairman Hansen's 
bill, and I hope that all of us can come to it with an open 
mind.
    And with that I yield back the time I don't have, Mr. 
Chairman.
    [The prepared statement of Mrs. Cubin follows:]

Statement of The Honorable Barbara Cubin, a Representative in Congress 
                       from the State of Wyoming

    I would first like to thank Chairman Radanovich, for taking time 
out of his busy schedule to be h ere in Casper today. Mr. Radanovich 
represents the 19th District of California, which includes most all of 
Fresno, Madera, Mariposa, and Tulare Counties in California. His 
district includes Yosemite National Park, so he and I have many common 
concerns in regards to proper management of our National Parks. He is a 
tireless individual and I respect him as much as anyone I have ever 
worked with.
    Next, I would like to extend a warm welcome to our northern 
neighbor Representative Denny Rehberg, who represents all of Montana. 
Mr. Rehberg, a rancher by trade, is no rookie to government having 
served in the Montana State House and as Montana's Lieutenant Governor 
for two terms. He does an excellent job of representing the people of 
Montana.
    I would also like to welcome Representative Eni F.H. Faleomavaega 
who has represented America Samoa in the Congress since 1989. Mr. 
Faleomavaega also served as Lieutenant Governor as well as Deputy 
Attorney General in America Samoa. He served the United States 
valiantly in Vietnam and spent seven years in the 100 Battalion 442 
Infantry Reserve Unit.
    Turning to the Administration's witness, I am pleased to welcome 
Kit Kimball, who is the Department of Interior's Director of External 
and Inter-governmental Affairs, or better known as Secretary Norton's 
``Ambassador to the West.'' She was previously the Executive Director 
of the Western Regional Council, and has worked hard to get her Denver 
office up and running to facilitate better lines of communication 
between Washington and the folks in the West.
    Thank you all for being here today.
    The Subcommittee is here today in a fact-finding capacity to learn 
more about the bill introduced by Utah Congressman Jim Hansen, chairman 
of the House Resources Committee, H.R. 4103, The Martin's Cove Land 
Transfer Act.
    In an effort to ensure that the views and opinions of interested 
parties would be heard, I requested that the Resource Committee hold 
this hearing in Wyoming and near Martin's Cove. I would like to thank 
Chairman Hansen for allowing this official field hearing to take place 
today.
    I am opposed to H.R. 4103 as it is currently written. However, I 
come to this hearing with an open mind. I look forward to a thoughtful 
and respectful dialogue between those who support the bill and those 
who oppose it.
    Today we have assembled a well rounded panel of experts who will 
share their thoughts on the legislation before us. The witnesses are 
all Wyomingites and are members of the trails community, historians, 
Church members, a local government representative, and local activists 
opposed to the bill. Other groups have been asked to provide written 
comments that also will be added to the record, including the Society 
of American Archeologists, the Sierra Club, and the Oregon California 
Trails Association.
    Also, I want to hear comments from audience members after the 
testimony is completed if they have something to add to the discussion. 
The comments will firmly be limited to one minute so that as many folks 
as possible can discuss their views.
    At the conclusion of the hearing, I will tour Martin's Cove with 
the witnesses, LDS representatives and Bureau of Land Management 
officials.
    Wyoming needs a full and thorough vetting of this bill to find out 
what the benefits and disadvantages are if the federal property is sold 
to the Church. I want to hear from all these groups to determine if 
there are ways Chairman Hansen's bill can be improved, or if it is 
simply a bill that does not benefit Wyoming.
    As everyone here is well aware, emotions have run high on this 
issue for several months. To me, that means everyone cares about the 
issue greatly and want their views to be heard. Today, we will ensure 
that happens. However, it goes without saying that while emotions do 
run high on the issue, I would ask that everyone participating be 
respectful of one another views.
    Finally, I would like to thank the witnesses and members of the 
audience for coming today in advance of the hearing. This will be a 
good forum to learn about Chairman Hansen's bill and the issue in 
general.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mrs. Cubin. I want to introduce 
the Honorable Eni Faleomavaega from America Samoa.

STATEMENT OF THE HON. ENI FALEOMAVAEGA, A DELEGATE IN CONGRESS 
              FROM THE TERRITORY OF AMERICAN SAMOA

    Mr. Faleomavaega. Thank you, Mr. Chairman. And I just want 
to say that for the good people of Wyoming, my district is 
somewhere between New Zealand and Hawaii, so if you want to 
come, I invite all of you to come and pay your own fare.
    Mr. Chairman, I want to thank you for holding this public 
hearing on the H.R. 4103, a bill which directs the Secretary of 
Interior to sell certain lands in Natrona County, Wyoming to 
the Presiding Bishop, the Church of Jesus Christ of Latter-day 
Saints.
    At the request of Congresswoman Barbara Cubin, our 
Subcommittee on National Parks is holding this hearing today to 
ensure that the residents and the good people of Wyoming are 
given an opportunity to be heard on this matter.
    I want to again commend you, Congresswoman Cubin, on your 
leadership and sensitivity on this proposed legislation; that a 
hearing is being held today in Casper, Wyoming, is a result of 
the Congresswoman's effort, and I thank my good friend from 
Wyoming for requesting this field hearing. And I thank you, Mr. 
Chairman, for honoring Mrs. Cubin's request.
    This is the second time that I had the privilege of 
visiting Wyoming, the Equality State, and I'm grateful for the 
opportunity. Years ago I traveled by car as one of the two high 
school students to represent the state of Samoa, at the 
National Conference For Youth For Christ International Clubs, 
from high schools all over the country, I believe 10,000 in 
all. And the convention was held that summer by Bass Lake in 
Indiana. So I've been to Casper, Wyoming.
    Years ago a relative of mine by the name of Paul Nune 
(phonetic), played football for the University of Wyoming 
Cowboys, and for the life of me I could never understand how he 
was able to adjust to the warm tropical weather you have here 
in Wyoming.
    As you are aware, Mr. Chairman, my name is listed as an 
original cosponsor of H.R. 4103. And I also want to note for 
the record that I am a Democrat, and very big convert member of 
Jesus Christ of Latter-day Saints, and very honored to have the 
experience to be a member of a Christian church that has roots 
that were established right here in America, and its origin is 
from America, truly an American heritage with an American 
prophet who was directed by divine providence to translate 
ancient writings that became known as Book of Mormon, a book 
that also stands for the divinity of issue, for the secular 
Jesus Christ.
    I'm not here to talk about religious doctrines, Mr. 
Chairman, I'm here to learn more about Martin's Cove, and why 
this piece of legislation, and why this piece of land, which is 
now owned by the Federal Government, should or not be sold to 
the LDS Church. And since the land in question is situated in 
the state of Wyoming, it is imperative that our Subcommittee 
should solicit testimonies and opinions from its congressional 
state and community leaders on this matter.
    The leaders of the LDS Church has expressed an interest to 
purchase Federal land known as Martin's Cove because of a 
tragedy that took place some 146 years ago right here about an 
hour's drive from Casper, Wyoming.
    My understanding is that two Handcraft--Handcart Companies, 
Willie Martin Companies, composed of almost a thousand members 
of the LDS Church who emigrated from England and Holland, they 
were not familiar with the harsh winters of the Midwest. Their 
attempt to reach Salt Lake City, Utah, through means of pulling 
specially made handcarts, since mostly they were poor and 
unable to purchase covered wagons without horses or oxen, these 
emigrants were caught in an early winter storm in that year, in 
October. And without sufficient food and clothing, over 200 
men, women and children died as a result of the cold, frost 
bite, starvation. And despite heroic efforts of LDS to locate 
and assist the two companies, the remaining members of the 
Willie Company founded South Pass, and those rescued in 
Martin's Cove were within the surrounding area that is now 
known as Martin's Cove.
    Mr. Chairman, this is basically my understanding of the 
events surrounding Martin's Cove, and why it holds a special 
feeling not only to the leaders, the members of the LDS Church. 
I do not believe any of us here this morning can appreciate the 
suffering these people have had to endure.
    Mr. Chairman, what happened in Martin's Cove is part of 
history about the early years of people who, for one reason or 
another, followed these famous trails that lead to California, 
or Oregon. For members of the LDS church, their movement to the 
west can best be described as their trail of many tears, and 
became--because of extreme religious bigotry and intolerance to 
the LDS Church, it forced migration for many members who left 
their homes and properties, tarred and feathered, who started 
their journey to the west and settled in the Salt Lake valley.
    For a period of some forty years members of the church made 
their way across the plains to live in peace and be united with 
those of their faith. They did this against harsh odds. The 
cost of the covered wagon was beyond the means of most. Many 
crossed the plains by foot pulling their belongings in 
handcarts some 1300 miles in difficult terrain.
    Although some 70,000 made it across the plains, along the 
way many perished as did their mothers and fathers or their 
brothers and sisters, sons and daughters, some even buried in 
Martin's Cove.
    I'm aware that there is some argument about what 
constitutes a burial ground. Mr. Chairman, I submit that a 
person who's buried anywhere, as far as I'm concerned, is 
sacred ground. We do know many of those that perished in 
Martin's Cove were placed in blankets and covered with snow 
because the ground was so frozen graves could not be dug.
    Does this make the ground less significant or less sacred? 
I do not think so. From the perspective of any thoughtful 
person, Mr. Chairman, Martin's Cove is a burial site, in 
religious and historical significance.
    Despite its historical significance, the Federal Government 
did little for public access to the site. My understanding that 
no access, highway notifications or facilities were available 
to the public until the LDS Church, in cooperation with the Sun 
family, purchased a fee simple land adjoining Martin's Cove in 
1996.
    Since 1996 the investment, construction of the operation of 
facilities necessary and essential to accommodate the public on 
fee simple lands near Martin's Cove was provided by the LDS 
Church. And I want to commend the BLM for permitting treks 
across its land from 6th Crossing west to Rock Creek and for 
working cooperatively with the LDS Church in recent years to 
facilitate public access to this historic site.
    It's unfortunate that some of the media, Mr. Chairman, has 
purposely tried to malign the LDS Church because of its effort 
to obtain Martin's Cove.
    Congress has previously offered the sale of public lands to 
the West Native Church in 1985, a similar sale the church also 
made in 1988.
    The question has also been raised about setting a precedent 
for American Indians to purchase Federal lands for religious 
purposes. The fact is Congress has already passed several 
pieces of legislation which transferred Federal lands to 
certain Native American Indian tribes because of recognition of 
such and for the tribes. This was done for the Zuni Indians of 
Arizona. It was done for the Hochunk Indian Nation of 
Wisconsin, and again for the Havasu Tribe of Arizona. Federal 
land was also conveyed to the Pueblo Taos Indians of New 
Mexico.
    Furthermore, when Congress passed the American Indian 
Religious Freedom Act in 1978, it clearly states that one of 
the fundamental policies of the United States government is, 
and I quote, To protect and preserve the American Indians, 
their inherent right to believe, to express, and to exercise 
the traditional religion of the American Indians, the Native 
Hawaiian, including but not limited to sites, uses and 
possession of sacred objects.
    And I can't share with you, Mr. Chairman, the tragedy and 
the sad story of what happened to the first Americans, I can 
only share with you the indignity of what is happening to the 
thousands of skeleton remains of Native Americans who sit right 
now in the Smithsonian Museum. You talk about desecrating, Mr. 
Chairman, I can show you terrible places where this is done so 
inadequately for the needs of the Native Americans.
    Mr. Chairman, I'm hopeful as a result of this field 
hearing, the efforts of Congresswoman Cubin, we will be able to 
find our way to a compromise that is agreeable to both the LDS 
Church and the good people of Wyoming.
    I want to thank our witnesses for giving their time and 
effort to testify this morning, and I look forward to hearing 
from them.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Faleomavaega follows:]

    Statement of The Honorable Eni F.H. Faleomavaega, a Delegate in 
                      Congress from American Samoa

    I want to thank you for holding this public hearing today on H.R. 
4103, a bill which would direct the Secretary of the Interior to 
transfer certain lands in Natrona County, Wyoming to the Corporation of 
the Presiding Bishop of the Church of Jesus Christ of Latter-day 
Saints.
    At the request of Congresswoman Barbara Cubin, our Subcommittee on 
National Parks and Public Lands is holding this field hearing today to 
ensure that the residents of Wyoming are given an opportunity to be 
heard on this matter.
    I want to commend Congresswoman Cubin for her leadership and 
sensitivity regarding this issue. That a hearing is being held today in 
Casper, Wyoming is a result of Congresswoman Cubin's efforts and I 
thank my good friend from Wyoming for requesting this field hearing 
and, I thank you, Mr. Chairman, for honoring Mrs. Cubin's request.
    This is the second time I have had the privilege to visit Wyoming, 
the Equality State, and I am grateful for the opportunity. Years ago, I 
was selected as one of two high school students to represent the State 
of Hawaii at the National Convention of the Youth for Christ. I believe 
about 10,000 high schools from all over the country participated in 
this event which that summer was held in Winona Lake, Indiana. On my 
way to Indiana, I got to see a bit of Wyoming. A relative of mine, Paul 
Nunu, also played football for the University of Wyoming Cowboys, and 
for the life of me, I could never understand how he was able to adjust 
to the warm tropical weather you have here in Wyoming.
    As you are aware, Mr. Chairman, my name is listed as an original 
co-sponsor of H.R. 4103. And I also want to note for the record that I 
am a Democrat and every bit a convert member of the Church of Jesus 
Christ of Latter-day Saints. It is an honor and a humbling experience 
for me to be a member of a Christian Church which has roots even in 
America and was restored by an American prophet that was directed by 
Divine Providence to translate ancient writings that later became known 
as the Book of Mormon--a book that also stands as a witness to the 
divine mission of our Savior Jesus Christ.
    But I am not here to talk about religious doctrine, Mr. Chairman. I 
am here to learn more about Martin's Cove and why this piece of land--
which is now owned by the Federal Government--should or should not be 
sold to the LDS Church. And since the land in question is situated in 
the state of Wyoming, it is imperative that our Subcommittee should 
solicit testimonies and opinions from its Congressional, state and 
community leaders on this matter.
    The leaders of the LDS Church have expressed an interest to 
purchase Federal land known as Martin's Cove because of a tragedy that 
took place some 146 years ago -'right here about an hour's drive from 
Casper. My understanding is that two handcart companies ``the Willie 
and Martin companies--were composed of almost a thousand members of the 
LDS Church who immigrated from England and Holland. These people were 
not familiar with the harsh winters of the Midwest and were attempting 
to reach Salt Lake City, Utah by means of pulling specially-made 
handcarts since most were poor and could not afford to purchase covered 
wagons and teams of oxen.
    In October of 1856, these immigrants were caught in an early winter 
storm without sufficient food and clothing. Despite heroic efforts by 
LDS Church members and leaders who sent teams from Salt Lake City to 
locate and assist the two companies, over 200 men, women and children 
died as a result of freezing temperatures and starvation. The remaining 
members of the Willie Company were found at South Pass and those 
rescued from the Martin Company were within the surrounding area that 
is now known as Martin's Cove.
    Mr. Chairman, this is basically my understanding of the events 
surrounding Martin's Cove and why it holds a special meaning not only 
to the leaders but to the members of the LDS Church. I do not believe 
any of us here this morning can appreciate the suffering these people 
had to endure.
    Mr. Chairman, for members of the LDS Church, their movement West 
can best be described as a ``trail of many tears.'' It can also be 
described as a forced migration. Because of religious bigotry and 
intolerance towards the LDS Church, many LDS members were forced to 
leave their homes and properties and pull handcarts across the plains 
as they made their way to the Salt Lake Valley.
    For a period of some forty years, new converts to the Church made 
their way across the plains to live in peace and be united with those 
of their faith. They did so against harsh odds. The cost of a covered 
wagon was beyond the means of most. Many crossed the plains by foot, 
pulling their belongings in handcarts across 1,300 miles of difficult 
terrain. Although some 70,000 Latter-day Saints made it across the 
plains, along the way many buried their mothers, fathers, brothers, 
sisters, sons and daughters. Some were buried at Martin's Cove.
    I am aware that there is some argument about what constitutes a 
burial ground. There is even argument about the exact location of where 
the people of the Willie and Martin Handcart companies were buried. I 
would like to submit that we cannot, and should not, judge 19th century 
burial grounds by 21st century standards.
    What we do know is that many of those who perished near Martin's 
Cove were wrapped in blankets and placed in piles and covered in snow 
because the ground was so frozen graves could not be dug. Does this 
make the ground less significant or less sacred? I do not think so. 
From the perspective of any thoughtful person, Martin's Cove is a 
burial site of historical and religious significance.
    Despite its recognized historical significance, the Federal 
Government has done little to facilitate pubic access to the site. It 
is my understanding that no access, highway notification, or facilities 
were available to the public until the LDS Church, in cooperation with 
the Sun family, purchased fee simple lands adjoining Martin's Cove in 
1996.
    Since 1996, the investment, construction and operation of 
facilities necessary and essential to accommodate the public on fee 
simple lands near Martin's Cove has been provided by the LDS Church 
with trail development at the Cove provided by the BLM with the 
assistance of volunteers from the Church. I want to commend the BLM for 
permitting treks across its land from Sixth Crossing west to Rock Creek 
and for working cooperatively with the LDS Church in recent years to 
facilitate public access to this historic site.
    It is unfortunate that some in the media have purposely chosen to 
malign the LDS Church because of its efforts to acquire Martin's Cove. 
The fact of the matter is Congress has previously authorized the sale 
of public land to the Wesleyan church in 1985. A similar sale of 
Federal land to the Catholic church was also authorized in 1988.
    A question has also been raised about setting a precedent for 
American Indians to purchase Federal lands for religious purposes. The 
fact is Congress already has passed several pieces of legislation which 
transferred Federal lands to certain Native American Indian tribes 
because of the significant and religious significance of those lands to 
the tribes. This was done for the Zuni Indians of Arizona. It was done 
for the Ho Chunk Indian nation of Wisconsin and again for the Harasupai 
tribe of Arizona. Federal land was also conveyed for the Pueblo de Taos 
Indians of New Mexico.
    Furthermore, when Congress passed the American Indian Religious 
Freedom Act in 1978, it clearly stated that one of the fundamental 
policies of the United States is ``to protect and preserve for the 
American Indians their inherent right of freedom to believe, express 
and exercise the traditional religions of the American Indian, Eskimo, 
Aleut, and Native Hawaiians, including but not limited to sites, uses 
and possession of sacred objects.''
    I might also add that Federal dollars were used to establish the 
Holocaust Museum in Washington, DC, and rightfully so. This museum is a 
beautiful memorial to a people who have suffered untold cruelties 
beyond all comparison.
    It is not unprecedented for the LDS Church to seek to reverence its 
dead. It is my understanding that the LDS Church has sought to acquire 
Martin's Cove in fee since 1997 by proposing an exchange for other 
lands in Wyoming but has been unable to reach agreement with the BLM 
despite good faith efforts by both parties. Given this and out of 
respect for the unique events which figure prominently and singularly 
in the faith of the LDS Church, I believe it is only appropriate that 
the U.S. Congress support the sale, exchange, conveyance, or transfer 
of this land.
    I am hopeful that as a result of this field hearing and the efforts 
of Congresswoman Cubin we will be able to find our way to a compromise 
that is agreeable to both the LDS Church and the good people of 
Wyoming.
    Mr. Chairman, I want to thank our witnesses for giving of their 
time to provide the public and members of this Committee with 
additional information and views that should be considered. I look 
forward to hearing from each of our witnesses as well as the general 
public.
                                 ______
                                 
    Mr. Radanovich. Thank you very much, Mr. Faleomavaega.
    I'll turn the attention to Congressman Dennis Rehberg from 
Montana.

   STATEMENT OF THE HON. DENNIS REHBERG, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF MONTANA

    Mr. Rehberg. Thank you, Mr. Chairman. I do not have a 
written opening statement, my opening statement will be brief. 
I'm a Lutheran, and so I won't probably have a lengthy comment, 
but I want to thank you in the audience. Those of us in the 
west care a lot about resource issues, especially the 
difference between private and public ownership. If I learned 
anything over the years, I've learned consensus needs to be 
established when it comes to issues such as this, because if we 
don't, we divvy up in the corners, and spend all of our time 
suing our way back out of those corners.
    As a fifth generation on the same ranch in Montana, I know 
what the area is all about. I feel that same proud feeling 
about my ancestors on that property, and so I know the 
struggles that many of you in Wyoming are feeling about the 
potential of either selling what you consider to be your 
heritage, or gaining access, or purchasing what you consider to 
be your heritage.
    I told my colleagues on the way in I was not going to hold 
it against Casper over the fact that I used to play in the Big 
Sky River Drum and Bugle Corp, and Casper Troopers continued to 
kick our rear ends over the years. I'll forget those years, 
because we never did beat you. Spent a lot of time coming down 
and trying.
    You're an outstanding group, you got great kids and great 
families, and for that I thank you for being our neighbors to 
the south.
    Thank you, Barbara, for the invitation. It's always nice to 
be back in Wyoming.
    And, Mr. Chairman, thanks for allowing me to sit on your 
panel.
    Mr. Radanovich. My pleasure. And with that we are going to 
go ahead and move to our panel of witnesses.
    Again, as Congresswoman Cubin had mentioned, our first 
panelist, Director Katharine Kimball is on her way, so we're 
not going to wait. We're going to start with Panel No. 2, which 
includes Mr. Scott Lorimer, Riverton, Wyoming, the Honorable 
Fred Parady from Rock Springs, Wyoming, and Mrs. Barbara Dobos 
from Casper, Wyoming.
    If those folks would please come forward.
    And for the audience's benefit, generally what we do is 
allow each witness to speak for 5 minutes regarding the issue, 
and then after the panel is done, it is opened up for each 
person here to ask them questions, and then when they're done 
we move to the next panelist. So that's kind of how this thing 
will unfold. Each person will make a 5-minute statement first 
and questions will be asked of them.
    Mr. Lorimer, welcome, and you may begin.

         STATEMENT OF SCOTT LORIMER, RIVERTON, WYOMING

    Mr. Lorimer. Thank you, Mr. Chairman. I thank the panel for 
being here. Fellow witnesses--
    Mr. Radanovich. Mr. Lorimer, a couple things, we learned 
this lesson, get close to the mike. And you'll see the little 
green light over there. That's the--It's like a traffic signal. 
Green means go, yellow means hurry up, and red means stop.
    Mr. Lorimer. Very well. Mr. Chairman, members of the 
Committee, fellow witnesses, and members of the audience, I 
appreciate you all being here today.
    My name is Scott Lorimer. I am a Wyoming native, a 
resident. I have been for the majority of my life. I grew up 
right here in Casper, Wyoming. I was a member of the Troopers. 
I also wrestled on this floor for a state championship match. I 
went through the educational system here in Casper and 
graduated in 1969 from Kelly Walsh High School.
    Following my graduate studies at the University of 
Nebraska, my wife and I moved our family to Riverton, Wyoming, 
where we made our home since 1976. My entire life then has been 
spent in close proximity to the sites of the Willie and Martin 
Handcart Companies when we moved to Riverton, Wyoming.
    As a youth I remember many, many trips going to 
Independence Rock, climbing up on that large monolith out in 
the middle of the prairie, and imagining what the pioneers must 
have thought when they saw that huge granite boulder.
    In addition to that I looked at the names. I wondered who 
those people were. I wondered had they made their destinations, 
what had caused them to come west, what day did they get here, 
how old were they, what were the members of their family like. 
That impression burned within me. I had a desire to learn of 
this history.
    After moving to Riverton, Wyoming, I not only--or at that 
time I wasn't allowed access to Devil's Gate but was taken into 
Martin's Cove by the Sun family. Again that desire was there to 
learn of those people.
    Upon moving to Riverton, I began to learn more about the 
Willie Handcart Company as well as the Martin Company. I began 
to collect journals, histories, diaries, rare books. That 
library has now grown to over 60,000 pages of documents 
regarding just these two handcart companies.
    My desire was, as I visited those sites, which were on 
private and public land, however, access was restricted by 
public access and by private ownership. My desire was that 
people, other people, other than just I, could visit those 
sites.
    I first approached the Bureau of Land Management and asked 
permission to help commemorate the suffering of those two 
handcart companies by constructing three monuments, one at 
Martin's Cove, one at the Willie site, and one at Rocky Ridge. 
The Bureau of Land Management approved the text of those 
monuments and siting of them, and granted us permission to 
harvest rocks from a quarry which they managed, to construct 
the monuments. However, no Federal funds were available to 
defray the cost.
    Volunteers by the thousands came, built the monuments, cast 
the bronze, and commemorated those pioneers. The monuments were 
dedicated on August 15th, 1992.
    At that time I asked permission from the leadership of the 
Mormon Church to try to buy Rock Creek Hollow, the site of the 
Willie Handcart Company camp where 13 are buried in a common 
grave. Permission was given, and on September 9th, 1992, Rock 
Creek Hollow was acquired by the Mormon Church, and after 
renovations were completed, was dedicated on July 23rd, 1994, 
and for the first time in many years was made available to the 
public at no cost.
    At the dedication of Rock Creek Hollow on July 23rd, 1994, 
I again approached the leadership of the Mormon Church, asked 
them for permission to approach the Sun family, and asked to 
purchase a portion of the Sun Ranch which controlled access to 
Martin's Cove. Permission again was granted.
    Negotiations took from 1994 to 1996, at which time in the 
spring of 1996 an agreement was reached with the Sun family to 
purchase a portion of the Sun Ranch, so that access could be 
allowed into Martin's Cove.
    At that time it was anticipated that hundreds, hundreds of 
thousands of people would come. Thousands of man-hours needed 
to be dedicated, and millions of dollars. The Mormon Church put 
those dollars up, and thousands of volunteers. Wyoming people 
from Casper, Riverton, Shoshone, Dubois, Rawlins, Rock Springs, 
and Lander dedicated thousands of hours to build all of the 
infrastructure that is currently on private land owned by the 
Jesus Christ of Latter-day Saints, and made access available to 
Martin's Cove.
    On July 23rd--on May 4th, 1997, the Mormon Handcart Visitor 
Center was dedicated at Martin's Cove; for the first time in 
140 years was made open to the general public at no fee and no 
cost.
    That has been the case to this day. I believe that there is 
a--
    Mr. Radanovich. You want to sum up, that's OK.
    Mr. Lorimer. Let me sum up one thing, Mr. Chairman, that 
there is a distinction that is a difference in what is being 
debated here. There are lands in the Sweetwater Valley owned by 
the Mormon Church that include the Mormon, Oregon, California, 
and Pony Express Historic Trails. Martin's Cove is not on those 
trails. It is a separate and distinct piece of land that is 
pertinent to the people, the 56 people that died there, and the 
thousands of people that were in there that were members of the 
Martin Handcart Company. It is a drastic difference, the access 
to the trails, Oregon, California, Pony Express, granted to the 
lands that they owned, for the first time ever in a hundred 
years.
    [The prepared statement of Mr. Lorimer follows:]

          Statement of Robert Scott Lorimer, Riverton, Wyoming

    Mr. Chairman and Members of the Subcommittee on National Parks, 
Recreation and Public Lands, it is a privilege to be before you today 
to discuss the use of and ownership of one of our national landmarks, 
Martin's Cove. My name is Scott Lorimer. My involvement during the past 
30 plus years with Martin's Cove and other Handcart historical sites 
has been as a non-historian volunteer. I have received no compensation 
or reimbursement for my work. I have no formal training as a historian 
but have written extensively regarding the Willie and Martin Handcart 
Companies and have been presented awards honoring my work. (please see 
Exhibits A and B)
    I grew up in Casper Wyoming, approximately 60 miles from 
Independence Rock, Devil's Gate and Martin's Cove. Throughout my 
childhood years I was completely captivated as my Mother would tell me 
stories of my great grandfather, Neils Peter Ipson. He was a native of 
Denmark who like so many emigrants of the 1800's came to America in 
pursuit of the right freedom of religion and many of the other freedoms 
enjoyed on the American shores. He was a member of the second handcart 
company to come in 1856, the McArthur Company. Mom would tell me how he 
pulled a handcart across the plains wearing wooden shoes he himself had 
made. I learned of the hardships suffered by the handcart pioneers and 
was very proud of my heritage.
    At the age of six, I was invited to go on a tour of Martin's Cove 
by a great Sunday School teacher. My classmates and I were treated to a 
guided tour by Tom Sun Jr. As I walked into Martin's Cove, I felt a 
special feeling that I did not completely understand. I listened to the 
stories of how the Martin Handcart Company had suffered in the October 
storm of 1856. In my mind I envisioned the pioneer children huddled 
near their dying parents as the relentless Wyoming winds tore at them 
and robbed them of body warmth, determination and life itself. I 
contemplated the feeling of starvation and despair. Those feelings 
never left me.
    After serving a mission in Germany and completing my college 
education I returned to Wyoming to live in Riverton. I had learned that 
there were two handcart companies stranded in the October 1856 
blizzard, the Willie Company and the Martin Company. I knew somewhat 
concerning the Martin Company but very little about the Willie Company. 
I resolved to find their campsites of note and more particularly Rock 
Creek Hollow near South Pass.
    Again as I walked for the first time on the ground at Rock Creek 
Hollow I felt a deep sense of reverence for the bold and courageous 
people who had given all that they had, even life itself, for 
generations yet unborn.
    I found myself desiring that other people that I knew might have 
the opportunity of visiting both Martin's Cove and Rock Creek Hollow. 
Access to both locations was on private ground so permission needed to 
be obtained each time a visit was made. I also began to visit sites on 
public, BLM, lands such as the base of Rocky Ridge and Rocky Ridge.
    I took everyone I knew to these areas and interest began to grow. 
They in turn brought their friends and so it went. In addition I began 
to be keenly interested in the handcart pioneers personal histories. I 
began collecting first hundreds and then thousands of pages of journals 
and other information relating to the handcart companies and the 
individuals who made up their number. The research made the sites of 
Martin's Cove and Rock Creek Hollow more meaningful and the pioneers 
became real. Their stories are about faith, dedication and love. 
Through the study of their lives we all became better people.
    On October 16, 1991, I invited local members of the Mormon Church 
to assist in the construction of three monuments along the Mormon 
Trail. The monuments were to be at Martin's Cove, The Willie Rescue 
Site and Rocky Ridge. The monuments were to resemble one that had been 
constructed at Rock Creek Hollow in 1932. After permission was obtained 
from the BLM and land owners, construction began. The response was 
overwhelming. Not only were the monuments constructed entirely from 
donated materials and labor but the large bronze plaques on each 
monument were cast by volunteers in Wyoming. This required not only 
creativity but the construction of a kiln, oven and tools to handle the 
molten bronze. These monuments were completed and dedicated on August 
15, 1992. Descendants of the Martin or Willie pioneers and other 
interested individuals began to visit the monuments in large numbers.
    The interest grew to the point that I approached the leadership of 
The Church of Jesus Christ of Latter-day Saints and asked permission to 
purchase first Rock Creek Hollow and then the Sun Ranch. President 
Gordon B. Hinckley, current President of The Church of Jesus Christ of 
Latter-day Saints, not only granted permission but enthusiastically 
embraced the idea of the purchases.
    Rock Creek Hollow was purchased on September 9, 1992. Work began 
immediately on a reclamation effort to restore Rock Creek Hollow to its 
original status as mining operations in the 1800's had significantly 
changed the river bed and left large tailings piles from dredge 
operations. After one and a half years of continuous work by volunteers 
who donated supplies, equipment and labor, Rock Creek Hollow was 
dedicated on July 23, 1994 by President Gordon B. Hinckley. After Rock 
Creek Hollow had been made available to the public, I obtained 
authorization to approach the Sun family for either an easement into 
Martin's Cove or the possible purchase the Sun Ranch.
    After lengthy negotiations a portion of the lands controlled by the 
Sun family were purchased on July 22, 1996. Work began immediately to 
construct a Visitor's Center, a new bridge across the Sweetwater, 
handcarts, restrooms and trails into Martin's Cove.
    The bridge was constructed entirely by volunteer labor which 
amounted to over 8,000 man hours. It became known as Veil Crossing. The 
trails were constructed by volunteers and BLM employees working side by 
side. The BLM provided very valuable suggestions that they had obtained 
through the management of other historical sites.
    The Visitors Center was completed by volunteers and was dedicated 
on May 3, 1997 by President Hinckley. The Visitor's Center became known 
as the Mormon Handcart Visitor's Center. Not only is the history of the 
Martin Handcart Company presented in the Visitor's Center but the 
history and legacy of the Sun family who had served as wise stewards of 
the land for over 150 years.
    After the dedication of the Visitor's Center thousands of visitors 
came every year. A dream that I had envisioned since my childhood had 
come true. People not only were being allowed to visit the sites of the 
Handcart Pioneers, but they were internalizing their stories. There 
began to be an ever growing reverence in relation to these sites.
    Virtually all pioneers that went to Oregon, California, Utah or 
other western destinations went through the Sweetwater valley past 
Independence Rock and Devils Gate. These areas became favorite camping 
locations because of the Sweetwater River and the geologic wonders. 
Less than 1%, however, of the pioneers who trekked the plains of 
Wyoming ever went into Martin's Cove. Every pioneer who used Martin's 
Cove was a member of the Martin Handcart Company or the Hunt and 
Hodgett wagon companies that were directly behind the Martin company 
and eventually joined them at Martin's Cove.
    In discussing the area with the Sun family it became obvious that 
they likewise had never used Martin's Cove with the exception of 
occasionally grazing during the winter. It is obvious that it has very 
little agricultural value as Tom Sun and his family never approached 
the Federal Government to purchase the land even though they 
continually bought other land along the Sweetwater River. The ground is 
largely granite boulders and a large sand dune. It is located 
approximately one and one half miles north of the Oregon, Mormon and 
California Trails.
    Although Martin's Cove is on the National Register of Historical 
Places, without the Martin Handcart Company and Brigham Young who sent 
rescuers from Salt Lake City, the Cove would have no meaning and be of 
no value historically or for agriculture purposes.
    There are thousands of stories of the Martin Handcart Company that 
have been discovered since 1992 that are being told at Martin's Cove. 
Two of those stories are contained at Exhibits E and F of this 
testimony. The accounts of heroism are well worth the readers time. 
Please take the time to read and learn of the events that occurred in 
October of 1856.
    One very brief story of a young woman and her fiance is as follows:
          Sarah Ann Franks (21) and George Padley (20) were both from 
        England. They became engaged but wanted to be married in the 
        Endowment House, the equivalent of LDS temples today, in Salt 
        Lake City. They joined themselves with emigrants that 
        eventually became the Martin Handcart company.
          Sarah and George made their way across the Atlantic Ocean and 
        then across the plains of America. They reached the last 
        crossing of the Platte River near Red Buttes when the October 
        snow storm hit the ill fated Martin Handcart Company. George 
        was a strong young man and therefore spent the majority of the 
        day on October 19, 1856 helping others across the Platte River.
          Due to the extreme exposure to the cold, George became ill, 
        suffered hypothermia, and eventually died in Martin's Cove.
          The Journals of the Martin Company are very graphic as to 
        what happened when the dead were buried in shallow trenches of 
        snow. The wolves would come in and devour the dead bodies. The 
        horrible sound of the snapping and snarling wolves was only 
        exceeded by the graphic look of the area after the wolves had 
        finished their work leaving body parts strewn about in the 
        snow.
          Sarah did not want this to happen to her beloved George. She 
        therefore took off one of the few things she had to keep warm, 
        a shawl. She asked the men responsible for burial duty to wrap 
        George in the shawl and hand his lifeless body in a tree to 
        keep him away from the wolves.
          As Sarah departed Martin's Cove, the last thing she saw--her 
        fiance George Padley's dead body hanging in a tree, wrapped in 
        her shawl. Only through the willingness to serve others that 
        these two young people possessed were they not allowed the 
        privilege of marriage and a family. Our world today could learn 
        much from such sacrifice.
    The Church of Jesus Christ of Latter-day Saints owns and operates 
historical sites and visitors centers through out the United States and 
Canada. The sole reason to own and operate these sites is to make them 
available to the public and tell uplifting historical stories like that 
of Sarah and George. The Church spends an inordinate amount of money 
maintaining these sites in a pristine state. Volunteers serve in these 
centers and sites to allow visitors to obtain a complete knowledge of 
the history, meaning and application of that knowledge in the every day 
life of the visitor. The track record of the Church speaks for itself 
not only for these historical sites but Martin's Cove operation as 
well.
    Since acquiring the Sun Ranch properties, hundreds of thousands 
have visited Martin's Cove. Access prior to that time had been very 
limited and the BLM had done nothing to make it accessible to the 
public.
    The Church has expressed its interest in not only maintaining the 
status quo at the Visitor's Center but would like to expand its 
operations on additional Sun Ranch lands. The Church has preserved the 
history of the Martin Handcart Company, other pioneer companies and 
ranch life on the Sweetwater River. At its own expense the Church 
constructed and maintains a ``Peoples of the Sweetwater'' museum at the 
Sun Ranch headquarters.
    During the summer of 2001 the Church participated in and allowed an 
archeological dig by the University of Wyoming to locate an old fort 
that once stood on Sun property. Plans are currently underway to 
reconstruct a replica fort. After reviewing the continual outlay of 
funds and the extensive work completed it is obvious that the intent of 
the LDS Church is to make the properties available to the general 
public.
    The vast majority of the visitors to Martin's Cove continue to be 
members of The Church of Jesus Christ of Latter-day Saints. There is 
little interest in the Cove from other groups as it has no real 
historical significance to them.
    The Church of Jesus Christ of Latter-day Saints is therefore the 
most likely and most dedicated caretaker of the land where these events 
that affect their people took place. No other group will ever have the 
interest level in the area that the LDS people have. Likewise there are 
few groups with the resources necessary to maintain and preserve the 
area of Martin's Cove like The Church of Jesus Christ of Latter-day 
Saints.
                                SUMMARY
FACTS:
    <bullet> Less than 1% of all the westward emigration pioneers used 
Martin's Cove. It is on the north side of the Sweetwater and was only 
used by the Martin Handcart Company. It has no historical significance 
to any other group.
    <bullet> During the 140 years that the Bureau of Land Management 
exclusively controlled Martin's Cove it did little or nothing to make 
the area of Martin's Cove available to the general public.
    <bullet> The Bureau of Land Management did not have funds to 
assist in the major construction costs of developing and interpreting 
the Martin's Cove site or the Willie Handcart Sites.
    <bullet> The Church of Jesus Christ of Latter-day Saints made the 
entire Sweetwater Valley from Devil's Gate to Muddy Gap, including 
Martin's Cove, available to the general public at no cost to the 
public.
    <bullet> The Church of Jesus Christ of Latter-day Saints built the 
following with donated labor and Church funding on land owned 100% by 
the Church:
       1. Visitor's Center
       2. 150 Handcarts
       3. Peoples of the Sweetwater Museum
       4. Construction of trails in and out of Martin's Cove--the BLM 
did provide design expertise and materials along with some labor. The 
labor to a large extent however was provided by local Wyoming members 
of the Church of Jesus Christ of Latter-day Saints.
       5. A vehicle bridge over the Sweetwater River
       6. A foot bridge over the Sweetwater
       7. Water wells for drinking water
       8. Restrooms in multiple locations
       9. Improved or constructed new roads on the Sun Ranch to 
improve access
      10. Alteration of the highway to provide save access
      11. Extensive fence work
      12. Two large campgrounds that will accommodate up to 850 people 
each on the Sun Ranch along the Sweetwater.
      13. One campsite on Sun land near Independence Rock along with a 
water well.
      14. Chapels, barns, shops and other infrastructure to support 
the Visitor's Center
      15. Interpretive signs on the trail to Martin's Cove
      16. Highway signs
      17. Picnic areas with sturdy tables, shade trees and water
      18. Parking lots
      19. Mobil home park for Couple Missionary Staff
      20. Two duplex apartment homes for missionaries
      21. Renovation of existing ranch homes for the occupancy of 
missionary couples
      22. RV trailer park for visitors
      Few if any organizations have or would commit the financial 
resources to construct and maintain such a facility.
    <bullet> Since opening the Visitor's Center at the Sun Ranch on 
May 3, 1997 an average of 50,000 visitors have made the trip to this 
remote location in Wyoming to learn of the westward migration and more 
particularly the Handcart history.
    <bullet> The Church of Jesus Christ of Latter-day Saints maintains 
a staff of 68 full time volunteer missionaries who at their own expense 
come to teach visitors about Martin's Cove, the other historical 
pioneer trails, the Sweetwater River ranch history and the history of 
the entire western migration.
      LThese missionaries are not employees of the Church. They leave 
their homes, families and grandchildren to come to Wyoming and fight 
with mosquitoes and the Wyoming wind and cold for the privilege of 
teaching others about this aspect of history.
    <bullet> The Church of Jesus Christ of Latter-day Saints tried 
repeatedly over a period of several years to acquire additional 
historic sites along the Trail corridor to exchange with the BLM for 
Martin's Cove. Although the Church purchased land of greater historical 
value, the Sixth Crossing of the Sweetwater is part of all the Trails 
and the majority of all pioneers crossed there while Martin's Cove is 
off the trail and was only used by the Martin Handcart Company, the BLM 
turned down offers to exchange equal acres of this land for equal acres 
of Martin's Cove.
    <bullet> Access to Martin's Cove has never been restricted by The 
Church of Jesus Christ of Latter-day Saints and will not be as long as 
individuals and groups entering the Cove conduct themselves in an 
appropriate manner for the nature of the site and what occurred there.
    <bullet> The Church of Jesus Christ of Latter-day Saints has 
participated in and sponsored archeological work by the University of 
Wyoming and Brigham Young University on lands it purchased from the Sun 
family.
    <bullet> No extensive archeological projects have been allowed on 
lands controlled by the Bureau of Land Management near Martin's Cove.
    <bullet> The Church of Jesus Christ of Latter-day Saints has a 
very good track record of managing historical sites and visitor centers 
through out the United States and Canada. The Church currently owns and 
operates 13 historical sites and 15 visitor centers throughout the 
world. These facilities accommodated over 5 million visitors during 
2001.
    Access to the public is granted free of charge. Although access is 
completely free of charge and granted to all who wish access, the vast 
majority--97%--of all visitors are members of The Church of Jesus 
Christ of Latter-day Saints. This again is logical and verifies that it 
has very little if any significance to other groups of interested Trail 
enthusiasts.

                               ARGUMENTS:

Access
    It has been argued that if The Church of Jesus Christ of Latter-day 
Saints was allowed to purchase Martin's Cove that it would be able to 
restrict access into the area. This argument runs cross current to the 
Church's proven track record and dedicated desire to make historical 
sites available to the public at no charge.
    The access argument cuts both ways. Those who raise this red 
herring need to ask themselves, has the Federal Government ever changed 
its position on land access? Other government-managed facilities have 
an entrance fee. Could an entrance fee per head be in the future of a 
BLM controlled Martin's Cove?
    The issue of access indeed is a red herring when one considers the 
track record of The Church of Jesus Christ of Latter-day Saints. The 
Church allows free access to all its facilities. If access is a 
concern, proper language can be crafted by attorneys to assure access 
by the public as long as activities and behavior patterns are practiced 
by visitors.
Precedent
    The precedent issue really does not exist. Every argument about 
precedent revolves around special interest groups wanting preferential 
treatment to sites special to their interests.
    The Church of Jesus Christ of Latter-day Saints has made the 
following offer:
    1. Repay the BLM for any expenses incurred in the construction of 
the foot trail into Martin's Cove.
    2. Pay the ``fair market appraised value'' for Martin's Cove and 
surrounding lands.
    3. Maintain Martin's Cove at the same or better status as the 
Federal Government has done.
    4. Guarantee access to the general public within the same 
parameters as set out by the BLM in the existing lease.
    5. Make access to Martin's Cove free of charge to the public.
    6. Pay for all upkeep, improvements, electrical and other 
utilities, property taxes, lease fees and repairs to the property. This 
continues as long as the property is in operation and no cost can be 
retroactively charged back to the Federal Government.
    7. Assume all liability for the property and its operation.
    8. Staff the site with qualified tour guides seven days a week 
every day of the year during operating hours.
    If any other special interest group wishes to acquire a historical 
site on the same terms the Federal Government should strongly consider 
it. It really is a ``no start'' business argument to say that a 
detrimental precedent is set through H.R. 4103.
    The precedent issue has it roots in special interest groups who 
want the Federal Government to give them public assets and then the 
same special interest groups wish to limit public access to those 
assets. This is not a level playing field and should not be considered 
in comparison to H.R. 4103.
    The Federal Government is very good at managing many things. If 
however the private sector is able to offer to manage a historical site 
or any other aspect of government at the same or better level and less 
cost to the public than the Federal Government can, then the Government 
should accept the offer, monitor the results, and apply its capital and 
manpower resources to other endeavors.
    For years the Federal Postal system was the only and best way to 
deliver packages and letters in the United States. Some where in the 
1970's a group of private sector individuals determined that they could 
provide the same service as the Federal Government at a lower cost for 
packages and overnight deliveries. The Government evaluated the 
process, security, cost and all other factors. It eventually was 
determined that the offer to relieve the Federal Government of part or 
all of this responsibility should be considered, evaluated and tried. 
Hence the birth of UPS and FedEx. Both these private businesses have 
replaced a portion of the Federal Government's obligations by assuming 
the liability. No one however has been able to replace the day-to-day 
delivery of mail so the Federal Government has retained that segment of 
the delivery business.
    In the case of Martin's Cove, again the private sector has 
volunteered to and has proven that it can manage this particular 
historical site better than the Federal Government at a lower cost to 
the public--nothing is lower than free. It is therefore my belief that 
the Federal Government should monetize the asset and apply those funds 
as well as its maintenance funds and expertise in other areas that the 
private sector is not capable of administering.
    The Church of Jesus Christ of Latter-day Saints not only has 
offered to manage Martin's Cove and make it available to the general 
public but has proven through its track record that it is able to 
manage and has managed the property to make it available to the public 
better and at a lower cost than the Federal Government can.
Separation of Church and State
    The opposition of H.C. 4103 raise the separation of Church and 
State issue. Like the access issue this argument cuts both ways. A very 
strong argument can be made for the reality that Martin's Cove was 
never used by any group other than the members of the Martin Handcart 
Company, hence the name--Martin's Cove. What then is the Federal 
Government wanting to manage a religious historical site for. 
Especially when The Church of Jesus Christ of Latter-day Saints will:
    1. Assume the liability of the property
    2. Make the Government whole financially
    3. Make the property available to the public at no cost
    4. Maintain the property at the same level or better than the 
Federal Government has
    5. Staff the property with tour guides
    6. Discuss not only the Mormon history but all westward migration 
history
    A very valid question under those conditions is--Why would the 
Federal Government wish to expend funds under such conditions? It would 
appear that the Federal Government needs to separate itself from the 
Church in this instance.

                               CONCLUSION

    In conclusion, I believe that given all the arguments The Church of 
Jesus Christ of Latter-day Saints is the best caretaker of Martin's 
Cove. I believe that the interests of the general public will be better 
served long term by the stability of that management.
    It has been a privilege to speak to you concerning these matters. 
For me, having Martin's Cove available to the public and members of the 
Church is a life long dream. Thank you for your time and consideration 
to this very worthwhile and necessary endeavor in preserving a vital 
portion of American and LDS history. I would be pleased to answer any 
questions you might have of me.
    NOTE: Exhibits attached to Mr. Lorimer's statement have been 
retained in the Committee's official files.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Lorimer. I appreciate that.
    Ms. Barbara Dobos, welcome. Again you may begin your 
statement. And it's going to sound--if you can talk like you're 
talking a little louder than you normally do, it's probably 
going to be just right for people to hear you.
    Ms. Dobos. Mr. Chairman, can you hear me?
    Mr. Radanovich. You have to yell.

          STATEMENT OF BARBARA DOBOS, CASPER, WYOMING

    Ms. Dobos. Mr. Chairman, and Members of the Committee, 
thank you for the opportunity to address the House Subcommittee 
on National Parks, Recreation and Public Lands.
    I'm opposed to H.R. 4103, Martin's Cove Land Transfer Act. 
There are many compelling reasons why I believe this proposed 
legislation should not be enacted into law, but in the interest 
of time I will focus on but a few of these.
    Passage of this bill will create a terrible precedent for 
selling off our national historic, prehistoric public sites to 
special interest groups by political means. The bill would 
circumvent the National Environmental Protection Act, Federal 
Policy Land Management, the National Historic Preservation Act, 
and other safeguards this nation has relied on to ensure the 
protection of our nation's historic and cultural treasures. 
These types of actions may signal that we are entering an era 
of public land management by congressional decree. No BLM-
administered National Register of Historic Places site has ever 
been sold to a private entity. If the BLM were forced to 
transfer title of Martin's Cove, let alone an entire two-and-a-
half sections of our public land, it will be selling off the 
National Register site at Martin's Cove, and part of the Tom 
Sun National Landmark at Independence Rock. These are all 
historic sites along the world renowned historic Pioneer Trails 
Corridor.
    At the present time the public land at Martin's Cove is 
managed by cooperative agreement between the BLM and the 
Church. Good relations exist between both parties. Even though 
the Church now claims they just want to assure public access to 
Martin's Cove, the fact remains that the church has always been 
dead set against granting of permanent public easement to the 
Federal Government.
    Citizens are now being asked to comment and support a bill 
when neither the selling price nor the disposal of the sale 
proceeds is being disclosed, let alone guaranteed public 
access.
    This special interest legislation stipulates that the land 
will be appraised on the basis of fair market value compared to 
recent exchanges and purchases of other historic property in 
Wyoming.
    Not only is there a lack of comparable sales in the area 
that meet such criteria, but also it is impossible to appraise 
intangible property with cultural and historic value.
    In the past few years the public has become increasingly 
aware of the tendency of the government to get the short end of 
the stick in appraisal on public land.
    There is a real danger that if the Church is successful in 
obtaining the 1640 public land acres, or even the approximately 
200 acres of the existing trail system into Martin's Cove, they 
could designate any place they want as sacred ground and lend a 
single interpretation to history to the trails corridor which 
belongs to the BLM, and the state would have no jurisdiction 
over archeological and cultural materials on private property.
    Research, preservation, and interpretation would be the 
purview of the property owner, without public oversight, as 
presently exists with the BLM.
    The Federal Land Policy Management Act clearly says it is 
the policy of the Federal Government that public lands will be 
retained in public ownership unless, as a result of the land 
use planning process, it is determined to be in the public 
interest to get rid of it.
    In this case there has been no planning decision.
    This Federal Land Policy was enacted to assure long-term 
goals for the National Historic Trails, to protect them, 
interpret them, make them accessible to the public where 
possible, and see that they are available for the public to 
study, use and enjoy for generations to come.
    Adhering to these objectives offers a better solution for 
preserving our national historic sites than selling them to 
special interest groups. Selling Martin's Cove, as H.R. 4103 
dictates, is not in the public interest.
    American history belongs to all Americans, not to a special 
interest few.
    Thank you very much.
    [The prepared statement of Ms. Dobos follows:]

              Statement of Barbara Dobos, Casper, Wyoming

    Mr. Chairman and members of the Committee:
    Thank you for the opportunity to address the House Subcommittee on 
National Parks, Recreation and Public Lands.
    I believe I am qualified to comment on H.R. 4103. I am a former 
Wyoming Legislator with a life-long interest in public policy. I have 
been a resident of Wyoming for 51 years. I hold a degree in 
anthropology and history from the University of Colorado and a teaching 
certificate from the University of Wyoming. I taught social studies in 
the public schools for 23 years and have served on numerous community, 
state and regional boards.
    I am opposed to H.R. 4103, cited as the ``Martin's Cove Land 
Transfer Act.
Overview:
    Legislation that would give the Mormon Church a preferential and 
exclusive right to purchase public lands in a National Historic area 
near Devil's Gate and Independence Rock in Natrona County, Wyoming, has 
been introduced in Congress. The bill is sponsored by Representative 
Jim Hansen and cosponsored by Mr. Matheson, Mr. Cannon, Mr. 
Faleomavaega, Mr. Doolittle, Mr. Herger and Mr. Flake.
    H.R. 4103 would set a bad precedent. It would allow special 
interest groups to acquire national historic sites through political 
means and weaken the federal process for land management. The bill 
circumvents the National Environmental Protection Act (NEPA), the 
Federal Land Policy Management Act (FLMA) and other safeguards this 
nation has relied on to insure the protection of our national historic 
and cultural treasures.
    Those who maintain that this legislation would not be precedent-
setting need to ask why native Americans are saying the bill might be a 
good idea and that they too are thinking of public land areas they'd 
like to have.
    If the BLM is forced to transfer title of this federal land it 
would be selling off the National Register site at Martin's Cove and 
the Tom Sun National Historic Landmark near the Devil's Gate and 
Independence Rock historic sites along the world renown historic 
pioneer trails corridor.
Proposed Legislation:
    ``Martin's Cove Land Transfer Act'' (H.R. 4103), instructs the 
Secretary of Interior to sell Martin's Cove and 1,640 acres of 
surrounding public lands to the Mormon Church.
    The bill not only would circumvent established national policy 
meant to protect public lands, but would also open the door to other 
special interest groups wishing to claim historic sites.
    No BLM-administered National Register of Historic Places site has 
ever been sold before to a private entity. At the present time, the 
public land at Martin's Cove is managed by a cooperative agreement 
between the Bureau of Land Management and the LDS Church Farm 
Management Company. Good relations exist between both parties. Many 
Wyoming citizens believe the privatization of our public land at 
Martin's Cove would run counter to the interest of the American public 
and federal policy.
Appraisal:
    This special interest legislation stipulates that the land will be 
appraised on the basis of fair market value compared to recent 
exchanges and purchases of other historic property in Wyoming. Not only 
is there a lack of comparable sales in the area that meet such 
criteria, but also it is impossible to appraise intangible property 
with cultural and historic value. In the past few years the public has 
become aware of the tendency of the government to get the short end of 
the stick in appraisals of public land.
    Hypothetically, if the land were appraised as grazing land the 
market value might be as low as $50 to $75 an acre. Even at $100 per 
acre, the proceeds of the sale would net only $164,000 for this 
parcel--for the sacrifice of an enrolled National Register historic 
site of national significance! Citizens are being asked to comment and 
support the bill when neither the selling price nor disposal of the 
sale proceeds are being disclosed.
    In the earlier draft legislation proposed by Representative Barbara 
Cubin the proceeds of the sale of Martin's Cove were to go to help 
finance the National Historic Trails Interpretive Center in Casper. 
Selling off the original land to help fund a museum to memorialize it 
makes no sense at all.
History of Martin's Cove:
    Martin's Cove overlooks the historical routes of the Oregon, 
California, Mormon and Pony Express National Historic Trails. The 
entire area, including Martin's Cove, is replete with legendary 
landmarks of prehistoric Native Americans, Mountain Men and the U.S. 
Westward movement. Martin's Cove is but the site of a single tragic 
event in the vast history of Wyoming and the nation.
    The trails corridor, which includes the Mormon Trail and the other 
three national historic trails on the same alignment, was used by 
perhaps as many as 500,000 immigrants over a 50-year period. According 
to Dr. David Love, former chief geologist for the U.S. Geological 
Service, from the 1840s through the early 1860s, some 50,000 people and 
200,000 animals each year passed along the trails corridor. Love goes 
on to say that a 400-mile long swath, and in some places as much as 20 
miles wide, cut across what is now the state of Wyoming.
Environmental Considerations:
    Jere Krakow of the Long Distance Trails Office of the National Park 
Service said, ``We can be assured that the continued impacts to all the 
trails will be considerable. Heavy visitation threatens not only the 
dunes at Martin's Cove, but the inscriptions near Devil's Gate. In 
addition, traffic (vehicular and foot), will temper the experience 
visitors have.''
    Krakow believes visitation levels could introduce an element of 
``loving it to death'' without careful management. Additional impacts 
on the area include increased water and sanitation needs and more and 
more campgrounds in a fragile environment. These are serious problems 
that need to be addressed by the collaborative efforts of federal and 
private stakeholders.
Historic Interpretations:
    The church has a collection of historic sites, visitors center, 
museums and annual pageants used to educate those unfamiliar with the 
faith's past and present teachings. Should they obtain Martin's Cove, 
there is no reason to believe that this practice will not continue. 
This kind of ownership fosters a single interpretation of history and 
allows for restricting public access during religious events.
    According to eminent trail historians Aubrey Haines and Paul 
Henderson, the actual ``rescue'' of the Martin Company did not occur at 
the present Church-designated location at Martin's Cove. Contemporary 
historic researcher Lyndia Carter of Springville, Utah concurs with 
their analysis.
    Trail historian and author Gregory Franzwa said, ``I don't know if 
this is a sacred site any more than the thousands of other Mormon 
burials along the line.'' He questions, ``Are they all sacred and all 
going to be owned by the church?''
    There is a real danger that if the church is successful in 
obtaining 1,640 public land acres, vastly more than the existing trails 
system into Martin's Cove; they could designate any place they wanted 
as sacred ground. The BLM and the state have no jurisdiction over 
archaeological and cultural materials on private property, so research 
and interpretation would be the purview of the property owner.
    From the Mormon owned Willie's handcart site on Rock Creek one 
might extrapolate what Martin's Cove could become under church 
ownership. It is a nearly textbook illustration of helter-skelter 
development. A crowning example is the placement of amphitheater 
benches across the historic trails. The trail ruts coming into the 
creek valley from the east and the ruts ascending the valley to the 
west are clearly visible on either side of the benches.
    The church is currently building a structure they say is a replica 
of Seminoe's Fort a trading post built along the trails corridor in 
1852 by Charles ``Seminoe'' Lajueness.
    The building is being constructed of huge cedar supports and 12'' 
sawn cedar siding from Canada. There isn't much pretense of historical 
accuracy. In 1855, when the fort was in use, the means they would have 
had was a typical wagon they could take to the Ferris Mountains. They 
would have cut poles and small logs and hauled them back to devil's 
Gate. There were no sawmills.
    BLM has spent over $200,000 in taxpayer dollars designing, 
developing and constructing the Martin's Cove foot trail on federal and 
private land. The Cove is situated on a fragile sand dune. Prior to the 
design and construction of this foot trail, automobiles and two track 
roads did considerable ecological damage. Because of BLM management, 
the area today is protected by strict federal regulations that could be 
ignored if the area were sold into private hands.
Conclusion:
    The Federal Land Policy Management Act of 1976 clearly states that 
any parcel of federal land with important public values generally will 
not be offered for direct sale, lease or exchange. This policy was 
enacted to assure long-term goals for the National Historic Trails to 
protect them, interpret them, make them accessible to the public where 
possible, and see to it that they are available for the public to 
study, use and enjoy for generations to come.
    Adhering to these objectives offers a better solution for 
preserving our national historical sites than selling them to special 
interest groups. H.R. 4103 legislation is not in the public interest. 
American history belongs to all Americans, not the special interest of 
a few.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9434.001
                                 
    Mr. Radanovich. Thank you very much, Ms. Dobos. Appreciate 
your testimony.
    Next we'll move to the Honorable Fred Parady. Fred, 
welcome. And again you may begin your presentation.

 STATEMENT OF THE HON. FRED PARADY, WYOMING STATE LEGISLATURE, 
                     ROCK SPRINGS, WYOMING

    Mr. Parady. Thank you, Mr. Chairman, Representative Cubin, 
and other Committee Members. I'm Fred Parady from Rock Springs, 
Wyoming. Welcome to Wyoming, and welcome home, Barbara.
    I thank you for the opportunity to appear before you today. 
I have the honor of serving in the Wyoming legislature as a 
member of the House of Representatives. I appear today on my 
own to express my personal support for the legislative concept 
advanced in H.R. 4103 that allows the Church of Jesus Christ of 
Latter-day Saints to own Martin's Cove.
    Last February, I joined with 54 of my fellow legislators in 
the House and Senate in sending a letter to the Wyoming 
congressional delegation expressing our support for the 
Martin's Cove legislation.
    I wish to make plain this was not official legislative 
action. Moreover, no specific congressional legislation on 
Martin's Cove had yet been introduced. H.R. 4103 had not been 
introduced. Therefore, our letter was simply an expression of 
support for the concept of conveying ownership of Martin's Cove 
to the LDS Church. The legislators that signed that letter were 
from both political parties, from many different religions, and 
from cities throughout Wyoming. Attached to my comments is a 
copy of this letter as Exhibit 1.
    I need to emphasize that our letter also supported the idea 
of having proceeds from the sale of Martin's Cove remain in 
Wyoming, and directed to the short and long-term benefit of the 
National Historic Trail Center in Casper.
    In truth, Martin's Cove is a historic trail site in 
Wyoming, and it is logical and advisable that proceeds from its 
sale be used for historic trails purposes in Wyoming. This is 
an important legislative change that needs to be made to H.R. 
4103.
    I am also submitting for the record a copy of an editorial 
on Martin's Cove by Senator Bob Peck as Exhibit 2. Senate Peck 
is a highly respected legislator in the Wyoming capitol. His 
piece accurately portrays the commendable efforts of Wyoming 
citizens in Fremont County who traveled long distances during 
winter months to fix up the former Sun Ranch to handle the 
needs of visitors at Martin's Cove. Members of the LDS Church 
throughout Wyoming, including my home town of Rock Springs, 
also traveled hundreds of miles to Martin's Cove to participate 
in these volunteer efforts.
    Mr. Chairman, the next point I wish to make concerns the 
positive LDS impact on Martin's Cove. For years I have traveled 
extensively throughout Wyoming on personal, legislative, and 
business purposes, reasons. Prior to the involvement of the LDS 
Church at Martin's Cove, I did not know the location of the 
site, even though I had passed by it and Independence Rock and 
Devil's Gate many, many times on my way to Casper on business. 
It was my direct experience that Martin's Cove was 
inconspicuous and indistinct during the years that the BLM 
managed the site alone.
    That has markedly changed due to the positive impact of the 
LDS Church members in Wyoming. The history of the Cove and its 
location are more broadly known and recognized.
    Tens of thousands of visitors come each year to Martin's 
Cove, which is impressive for a site that is not located near a 
city, is not near an interstate, and does not even have highway 
services nearby.
    It is vibrant to visitors, especially during summer season.
    One point bears specific emphasis. Regardless of your view 
of H.R. 4103, the Wyoming members of the LDS Church deserve 
great credit for their work in bringing the history of Martin's 
Cove to light, and for making public visitation to the site 
possible.
    They've constructed a sturdy bridge, a walkable trail, a 
museum. All of that was built through their efforts. What they 
have done is truly commendable and their efforts at Martin's 
Cove are an outstanding contribution to our great state.
    In my view some of the claims leveled against conveying 
Martin's Cove to the LDS Church are over done or overblown. 
Would digress from my text for a moment, and note this is not a 
tempest in a teapot, it's a tempest in a Tribune. Criticism 
that LDS ownership would restrict access, it would hurt the 
historic area and minimize the nearby historic sites is simply 
not fair and completely incongruent with the fine work that has 
been done there.
    In fact, the exceptional devotion the LDS have demonstrated 
for the Cove is the very reason that they would do the best job 
caring for the history and site.
    While I am not of the LDS faith, I firmly feel that the 
Martin's Cove conveyance is the right thing to do. The LDS 
Church has clearly demonstrated its commitment to openness by 
building the infrastructure necessary to sustain that.
    My second point concerns the economic and tourism benefits 
for Wyoming. Wyoming's travel and tourism industry has 
benefited significantly from the involvement of the LDS Church 
at Martin's Cove. Quarter of a million people--
    Mr. Radanovich. If you want to sum up, we're running out of 
time.
    Mr. Parady. A quarter of a million people visited the site 
since it opened, generating millions of dollars of business for 
Wyoming's very small businesses.
    Finally, from a matrix standpoint, the final Martin's Cove 
legislation should only convey the essential amount of land 
that relates to its history. I don't know how much acres that 
is, but I trust that this Subcommittee can work with the state 
holders to set those boundaries at their appropriate level.
    Mr. Chairman, I believe that others like me will offer 
recommendations on H.R. 4103. Whatever the deficiencies of the 
bill in its current form, they can be addressed by amendment 
and they do not invalidate the underlying concept the bill 
advances.
    [The prepared statement of Mr. Parady follows:]

Statement of The Honorable Fred Parady, Wyoming State Legislature, Rock 
                            Springs, Wyoming

    Mr. Chairman, Representative Cubin, and other subcommittee members: 
I am Fred Parady from Rock Springs, Wyoming. Welcome to Wyoming and 
thank you for the opportunity to appear today.
    I have the honor of serving in the Wyoming State Legislature as a 
member of the House of Representatives. I appear today on my own to 
express my personal support for the legislative concept advanced in 
H.R. 4103 of allowing the Church of Jesus Christ of Latter-day Saints 
(LDS) to own Martin's Cove.

Expressions of Wyoming State Legislators
    Last February, I joined with 54 of my fellow legislators in the 
House and Senate in sending a letter to the Wyoming congressional 
delegation expressing our support for Martin's Cove legislation. I wish 
to make plain that this was not official legislative action. Moreover, 
no specific congressional legislation on Martin's Cove had yet been 
introduced. Therefore, our letter was simply an expression of support 
for the concept of conveying ownership of Martin's Cove to the LDS 
Church. The legislators that signed the letter were from both political 
parties and were from cities throughout Wyoming. Attached to my 
comments is a copy of this letter (Exhibit 1).
    I need to emphasize that our letter also supported ``the idea of 
having proceeds from the sale of Martin's Cove remain in Wyoming and 
directed to the short and long-term benefit of the National Historic 
Trails Center in Casper.'' In truth, Martin's Cove is a historic trails 
site in Wyoming and it is logical and advisable that proceeds from its 
sale be used for historic trails purposes in Wyoming. This is an 
important legislative change that needs to be made to H.R. 4103.
    I am also submitting for the record a copy of an editorial on 
Martin's Cove by Senator Bob Peck of the Wyoming State Senate (Exhibit 
2). Senator Peck is a highly respected legislator. His piece accurately 
portrays the commendable efforts of Wyoming citizens in Freemont County 
who traveled long distances during winter months to fix up the former 
Sun Ranch to handle the needs of visitors at Martin's Cove. Members of 
the LDS church throughout Wyoming, including the Rock Springs area, 
also traveled hundreds of miles to Martin's Cove to participate in 
these volunteer efforts.

Positive LDS Impact on Martin's Cove
    For years, I have traveled extensively throughout Wyoming, both for 
personal reasons and on legislative business. Prior to the involvement 
of the LDS church at Martin's Cove, I did not know the location of the 
site, even though I had passed it many times on the highway. It was my 
experience that Martin's Cove was inconspicuous and indistinct during 
the years the Bureau of Land Management (BLM), alone, managed the site.
    That has markedly changed due to the positive impact of the LDS 
church members in Wyoming. The history of the Cove and its location are 
now more broadly known. Tens of thousands of visitors come each year to 
Martin's Cove, which is impressive for a site not located near a city, 
Interstate or even highway services. It is vibrant with visitors, 
especially during the summer season.
    One point bears specific emphasis: Regardless of one's view about 
H.R. 4103, the Wyoming members of the LDS church deserve great credit 
for their work in bringing the history of Martin's Cove to light and 
for making public visitation to the site possible. What they have done 
is truly commendable and their efforts at Martin's Cove are an 
outstanding contribution to the State.
    In my view, some of the claims leveled against conveying Martin's 
Cove to the LDS Church are overdone. Criticism that LDS ownership of 
the Cove would restrict access, that it would hurt the historical 
heritage of the area, and that it would minimize the nearby historic 
sites is simply not fair and is completely incongruent with the fine 
work Wyoming citizens have done at the Cove.
    In fact, the exceptional devotion the LDS people have demonstrated 
for the Cove is the very reason they would do the best job caring for 
the history and ecology of the site. While I am not of the LDS faith, I 
firmly feel that the Martin's Cove land conveyance is the right thing 
to do.

Economic/Tourism Benefits for Wyoming
    Wyoming's travel and tourism industry has also benefitted from the 
involvement of the LDS church at Martin's Cove. A quarter-million 
people have visited the site since it opened generating millions of 
dollars of business for motels, restaurants, stores and service 
stations throughout Wyoming. Its location in the heart of the state 
requires visitors to spend extended time in Wyoming. The Cove has 
proven to be a historic site people want to see and we should do all we 
can to encourage people to come.

Acreage Considerations
    From an acreage standpoint, final Martin's Cove legislation should 
only convey the essential amount of land that relates to its history. 
While I do not know how many acres that is, I trust this subcommittee 
will work with the BLM, the LDS church, historians and other 
stakeholders to make the best determination of conveyance boundaries.
    That said, it is important to remember that the BLM manages one-
eight of the landmass of the United States, most of it concentrated in 
the interior west. In Wyoming, the BLM manages over 18 million surface 
acres, almost 30 percent of the state. This perspective is useful for 
two reasons.
    First, the manpower and financial resources of the BLM in Wyoming 
are stretched over a vast area. Their inability to do much at Martin's 
Cove over the years clearly demonstrates the limits of these resources 
and argues in favor of LDS ownership.
    Second, in Wyoming, where the BLM owns such a huge amount of land, 
I believe there is room to respect the ownership request of the LDS 
church, especially when they have arguably done more to advance the 
public and historic interests of the site than the Federal Government.
Conclusion
    I believe that others, like me, will offer critique and 
recommendations on H.R. 4103. However, whatever the deficiencies may 
be, they can be addressed by amendment and they do not invalidate the 
underlying concept the bill advances.
    Mr. Chairman, this concludes my testimony. I would be pleased to 
respond to questions members of the Committee may have.
                                 ______
                                 
    [NOTE: A letter attached to Mr. Parady's statement from the 
Wyoming State Legislature is identical to the one submitted by 
Ms. Kennell. See page 51.]
    Mr. Radanovich. I want to keep everybody in mind if you 
feel like within that time-frame you didn't get the opportunity 
to say everything you wanted, we do have the written testimony 
which I think covers everything very well in the record, so I 
think we've got everybody covered. Five minutes for some 
doesn't seem like long enough.
    With that we will open up for questions by Members. Mrs. 
Cubin, did you have any questions?
    Mrs. Cubin. Yes, thank you, Mr. Chairman. As I said in my 
opening remarks, this bill as it is written today is something 
that I am very much opposed to. I may oppose it after H.R. 4103 
has gone through the entire legislative process, but I am here 
with an open mind, and I may not. That's why I'm here, so that 
we can get all the testimony, all the benefits and problems, 
and come to a reasonable solution.
    Representative Hansen is the Chairman of the Committee. And 
I think it's unrealistic to think this bill doesn't have a 
chance to pass because of what happens here today. So what I am 
going to ask of you, and particularly when you come to the 
microphone for your input, I would like to ask you what changes 
to this bill could I offer as amendments to make it so that it 
would be more palatable to those of you who oppose the bill, 
and to make it a better bill to those of you who support the 
bill.
    So if you would keep that in mind while--while the 
questioning goes on.
    I'm going to start with Mr. Lorimer. One of the main 
problems is access. Some folks have expressed concern that the 
Church would shut down access to the Cove if the entire parcel 
were owned by the Church. I would like you to comment on that 
directly, and whether the Church would support an--whether you 
think the Church would support an access provision in the bill?
    Mr. Lorimer. Thank you. I think the answer to that 
question, Representative Cubin, is in the past. Access has been 
made available--access has been made available, and it's my 
understanding from the authorities of the Church, that it will 
continue to be made available to the general public at no cost.
    I think their track record of maintaining 13 visitors, 
sites and 15 historical sites around the world substantiates 
that.
    So I don't think public access is a problem. However, if 
there is concern with that, I would suggest that is one thing 
that you could write into the bill. I cannot speak on behalf of 
the Church, but I would see no reason why they would object to 
such language that would guarantee public access forever.
    Mrs. Cubin. Thank you. I'd like to let everyone know I am 
not LDS, but my grandfather was part American Indian, and one 
thing that I have observed while this process has been going 
on, is it seems to me that if we were to replace LDS with 
American Indian, we wouldn't have so many people up in arms 
about doing the very thing that this bill asks to do.
    In fact, as Mr. Faleomavaega brought out, we've done this 
many times for Indians. So that's a concern that I have, that I 
just don't think we want to be prejudiced against a church when 
we would treat another spiritual organization or group 
differently, of which I am a member.
    I would like to ask Miss Dobos a question. First of all, 
Mr. Chairman, I ask the Members consent to admit into the 
record an advertisement that was placed in the Star Tribune by 
a group that Mrs. Dobos, I believe, is the leader of, or a 
member of, at the very least, and Chairman Hansen's response to 
that document.
    Mr. Radanovich. There's been no objection. So ordered.
    [The information referred to has been retained in the 
Committee's official files.]
    Mrs. Cubin. Thank you. In that recent advertisement, Mrs. 
Dobos, your group mentioned that proceeds of the sale would net 
only $164,000. Would you tell me what that number was based on, 
and did it include the BLM's improvements to that area?
    Ms. Dobos. Mr. Chairman, thank you. Mrs. Cubin.
    Mr. Radanovich. Barbara, if I might ask you to speak more 
directly into the mike so people in the back can hear. I know 
it's hard.
    Ms. Dobos. Thank you. Can you hear me now?
    Mrs. Cubin. Yes.
    Ms. Dobos. The problem comes with appraisals, and there 
isn't a person in this room that probably hasn't experienced 
appraisals; is what is the basis, if you look at fair market 
value and what are we selling and what are we buying.
    That land has always been classified as grazing land, and 
grazing land in that part of Wyoming is generally somewhere in 
the 50 to $75 an acre. Hypothetically, if you say, well, this 
is $100 an acre, then you would get such minimal proceeds for 
such a valuable and historic piece of land, that it really 
doesn't make any sense.
    The proceeds--
    Mrs. Cubin. So that's where the $164,000 came from, was the 
grazing value of the land?
    Ms. Dobos. Yes. And I see that there is no other 
alternative for comparison. Now, if you were--If you were to 
set a price on it and say this is worth 2 million dollars, 
that's understandable, but appraisals are tricky.
    Mrs. Cubin. Yes, certainly they are, and I agree with you 
on that.
    If the BLM--obviously the 164,000 did not include the 
improvements that the BLM has made in the area, and it's my 
understanding that the Church would pay for those, but if they 
didn't, I could offer an amendment to make sure that they did.
    Likewise, you said in your publication that you don't feel 
that the historic value of the Cove should also be factored in. 
You feel that--oh, that it should be factored in, as well as 
the 250,000 the BLM spent on the area, so the historic value 
certainly would be something to get a figure on. However, they 
do it all the time with other historic sites that are quite 
unique in their varied being, so I don't think that's an 
insurmountable problem, but it is a legitimate point to bring 
up. That's another area where I intend to offer an amendment to 
this bill, to make sure that the value paid includes more than 
just the grazing value, what the BLM has invested, and 
historical value.
    Have you ever visited the site, Mrs. Dobos?
    Ms. Dobos. Yes, Mr. Chairman; yes, Mrs. Cubin, I've been at 
this site quite frequently.
    Mrs. Cubin. We're going to be going out there today, so I 
invite anyone who wants to go out and look at it, to follow 
along with us.
    Mr. Parady, you entered into the record a letter that was 
signed, by I believe 60 members of the Wyoming legislature; is 
that correct?
    Mr. Parady. Fifty-four members.
    Mrs. Cubin. And there are 90 members in the entire 
legislature; is that correct?
    Mr. Parady. Yes, ma'am.
    Mrs. Cubin. So more than a majority of the people in the 
state legislature who represent people from all over the state, 
it would appear, favor passage of this bill?
    Mr. Parady. Yes, Representative Cubin, that is correct, and 
I would note that of the--this was--we have a resolution 
process on the floor where we pass an informal resolution up 
and down the aisle for signature, so those who did sign could 
have chose not to sign, and perhaps didn't get the chance to 
because it was at the end of the session.
    Mrs. Cubin. Would this be a better bill--yes or no answer--
if full access were provided to the public in perpetuity and 
without restriction? Would this be a better bill?
    Mr. Parady. The only reason I hesitate in answering yes or 
no--The short answer is yes, but I would think that the type of 
access might be a negotiable kind of concern.
    Mrs. Cubin. Do you think those members of the Wyoming 
legislature that signed that letter would still lend the same 
support for the sale with the conditions of full access, and 
direction of proceeds to benefit Wyoming?
    Mr. Parady. Yes, I do.
    Mrs. Cubin. Thank you, Mr. Chairman. I yield back at this 
time.
    Mr. Radanovich. All right. Thank you, Mrs. Cubin. Mr. 
Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I do have a 
couple of questions. Mr. Lorimer, there seems to be some 
criticism also in the media that the Martin's Cove is going to 
come up with only one way of interpreting what history has 
been, or was at the time. And I wanted to ask you, has there 
been any other association, or any others that can claim some 
sense of historical relationship with Martin's Cove other than 
the LDS Church?
    Mr. Lorimer. It is my understanding it was discovered, at 
Brigham Young University expense, at the request of the BLM, 
there were two prehistoric--
    Mr. Faleomavaega. Get closer to the mike.
    Mr. Lorimer. There were two prehistoric camp sites found 
there, but other than those two, to my knowledge there has 
never been anyone else that used it. Even the Sun family only 
used it for winter grazing. There was no emigrant, no Oregon, 
California trail people that ever went in there. It's on the 
north side of the Sweetwater River, and there was no reason to 
cross the Sweetwater.
    Mr. Faleomavaega. Would you say perhaps the central, 
overriding theme for the Church's interest in this particular 
property was because of the tragedy that happened to these 
early emigrants who came from Europe, well over 200 men, women 
and children who died in this area? Does this seem to be the 
reason why the Church is putting so much emphasis why they feel 
this is a very special ground for consideration then, 
considered sacred, if you will?
    Mr. Lorimer. The preservation of that sacred history is why 
the church is involved, yes.
    Mr. Faleomavaega. This is not just in terms of an 
interpretation. Was this based also on journals, and history 
that were kept by those who survived this tragedy? Is there 
any--Has there been any data kept of the history, especially 
those who were able to survive the William Cove tragedy?
    Mr. Lorimer. Yes, sir. There is a lot of information, 
recorded histories, as well as narrative journals that were 
written after the fact by survivors of the company. I've 
learned a lot about the history. I am not a historian, and I 
understand that there are people who feel that things happened 
in different places, but the Church of Jesus Christ of Latter-
day Saints has said this is where, Martin's Cove, the Martin 
Company buried 56 of their members.
    Mr. Faleomavaega. I'd like to ask Mrs. Dobos just a couple 
questions also. And I do very well respect your opposition 
concerning this legislation, Mrs. Dobos.
    Mrs. Cubin had made reference to this eight-page newspaper 
ad that was sticking out, that is opposed--or a written 
response by the citizens opposed to the sale or exchange of 
public lands within historic areas. Is this a nonprofit 
organization, Mrs. Dobos?
    Ms. Dobos. I'm not sure about that. It's a very loosely 
knit group of people who have supported me because of their 
sense of we need to speak out in defense of our public lands.
    Mr. Faleomavaega. Could you share with us the estimate 
numbers of persons that make up this organization?
    Ms. Dobos. All I can tell you is as a result of that 
publication, I have had notes and checks and support from 
hundreds of people all over the state of Wyoming, many of whom 
I don't know, but I do appreciate.
    Mr. Faleomavaega. But before publishing this 8-page 
article, I just wanted to ask how many of your organization, 
what was the composition of the members that have had the same 
concerns you did, concerned with this issue?
    Ms. Dobos. That's a very fluid number and I can't really--I 
take full responsibility for that publication, and I was the 
primary contributor in the beginning.
    Mr. Faleomavaega. I see. I'd like to ask Mr. Parady, do you 
think with the concerns on the part of the petition that was 
drawn up by the members of the Wyoming state legislature, you 
mentioned that you do not mind at all if the proceeds of the 
sale, if this should ever go through, should also be 
transferred for the purposes of usage by the Historic Trails 
Center that I know my good friend Mrs. Cubin was a key player 
in passing this legislation, very important in my opinion. 
Would there be any objection to the idea that, that there's 
some assurances given to the legislation that public access 
will be assured in every way, that the Mormon Church does not 
make this in any way a private enterprise?
    Mr. Parady. I think such assurances in the bill would go a 
long way toward moving the bill forward.
    Mr. Faleomavaega. Thank you, Mr. Chairman. My time is up.
    Mr. Radanovich. Thank you, Mr. Faleomavaega. If I can have 
some help from the audience too. I just want to make sure 
everybody does get the opportunity to listen to the testimony, 
so I'm assuming those on the top deck probably have the hardest 
time hearing. If you have a hard time I'll keep on an eye on 
you, would you raise your hand. I'll persuade people to talk a 
little bit louder.
    Thank you. Mr. Rehberg.
    Mr. Rehberg. Thank you. Mr. Lorimer, you mentioned two 
prehistoric campsites. Has your organization or BLM done 
anything to protect those sites or identify those sites?
    Mr. Lorimer. My understanding is those sites are not 
infringed on in any way--they're not infringed in any way by 
the trail that was designed--
    Mr. Rehberg. What I'm trying to get at, I want to ask you a 
second question, and I apologize if I interrupt you. We are 
limited in time as well. I want to ask you as many questions as 
I possibly can.
    What I'm trying to get at, the level of support you believe 
you have received from the Bureau of Land Management over the 
course of years that you've become involved, can you give me a 
percentage of--I saw the figure $250,000. Is that the extent of 
the Bureau of Land Management's participation? Have you spent 
millions? Have you spent hundreds of thousands? Has anybody 
protected the prehistoric campsite? Have you received any help 
or are you carrying the load yourself?
    Mr. Lorimer. It is my understanding, I do not have exact 
knowledge, but I have participated in those discussions. The 
BLM did contribute the 250,000 for some labor and construction 
of the trail. Beyond that it has been on the back of the 
Church.
    Mr. Rehberg. What percentage has been your participation?
    Mr. Lorimer. If you throw in the purchase of the land as 
well as the maintenance of the land, the staffing of the land, 
I would say it's 90-10, 95-5.
    Mr. Rehberg. I don't want to say we'll do this if you get 
the property, but if you get the property, is it the only 
access across your deeded property to this site? And would it 
be a fair assessment that if you did get the purchase of this, 
that if you wanted to you could in fact legally limit access to 
this site?
    Mr. Lorimer. The answer to the first question, to my 
knowledge the only other way to get in there would be a 
helicopter. There isn't any other access, it's granite 
boulders. There is a cooperative agreement in place right now 
for 2 years where there is guaranteed access through the Bureau 
of Land Management through Sun land owned by the Church.
    Mr. Rehberg. This purchase could be a way of guaranteeing 
access where there is no guarantee?
    Mr. Lorimer. Yes, absolutely.
    Mr. Rehberg. Mrs. Dobos, I didn't have the opportunity to 
see the ad. I did see the response, and I'd like to see the ad 
if the staff would make that available to me within the next 
couple of weeks. I guess the question is, in the response it 
refers to the inaccuracies within the publication. Do you stand 
by everything you say in this publication, that you say it is 
entirely correct, that there are no either misunderstandings or 
inaccuracies?
    Ms. Dobos. Mr. Chairman, Mr. Rehberg, I stand behind 
everything that is written in this publication. I think that, 
you know, that anything can be taken out of context, anything 
can be reinterpreted. If there are inaccuracies in that, I'm 
not aware of it.
    Mr. Rehberg. OK. So the level of support that you have 
received is based upon what you consider to be an accurate 
portrayal of the issue, and if there end up being inaccuracies, 
then we have to weigh the level of support based upon this 
publication?
    Ms. Dobos. Mr. Chairman, Mr. Rehberg--
    Mr. Radanovich. Excuse me, if you could, just let it out.
    Ms. Dobos. I will say once again that I take responsibility 
for what is in that publication. To the best of my knowledge 
everything has come from documents that were furnished by 
either the BLM, or from other reliable resources. It was 
researched over a 9-month period of time, and I believe that 
reflects the truth.
    Mr. Rehberg. Other than the Bureau of Land Management, are 
you aware of any other--and you used the word special interest 
many times. I guess I believe everybody belongs to a special 
interest, and somewhere along the lines it has received a 
negative connotation. I believe anybody taking a position on a 
bill, once they do take a position, they have in fact a special 
interest as well.
    Are you aware of any special interest other than the Church 
that is taking as much of an interest in the protection and 
presentations to the public as the Church has?
    Ms. Dobos. No, Mr. Chairman, Mr. Rehberg. One of the 
principal players in that whole trails corridor is the National 
Park Service and there's been no mention of them. It's not 
solely the BLM.
    Mr. Rehberg. Has the trails, under the National Park 
Service, developed trails into this site, or are you talking 
about a corridor that is peripheral to but not a part of, 
meaning miles away from, and if it wasn't for some other entity 
or a special interest creating the access to the site it 
wouldn't have been accomplished?
    Are you saying the National Parks Service has done 
something to improve trails to the site?
    Ms. Dobos. The National Parks Service has a National Trails 
Office in Salt Lake City, and they monitor what goes on along 
the trails. I think it's important to put this in perspective, 
and recognize that Martin's Cove is not any great distance from 
the trails. Those four historic trails are--it is a corridor. 
In some places the trails are braided, but it is essentially 
all of one piece, and you can't separate one from the other.
    I think all through the prehistoric and historic period 
people have used Martin's Cove, which is just a short distance 
away, and overlooks all of the trails. Is that clear? I'm not 
sure.
    Mr. Rehberg. I guess, Mr. Chairman, if you could bear with 
me, I'm just trying to find a commitment from any other 
organization, that you say this is a loosely knit organization, 
so you've made no, either time commitment or financial 
commitment to protect this property, and I'm not sure I 
understand. Has the National Parks Service spent any money or 
any staff hours building anything at Martin's Cove?
    Ms. Dobos. Mr. Chairman, there's all kinds of reportsthat 
has gone into the development of the trails, but all I can tell 
you for sure is the National Parks Service has been very 
interested in excavation, archeological excavation of Seminoe's 
Fort, which is right at the Handcart Visitor Center, and last 
summer their monetary contribution was $30,000. But, to be very 
specific, I do not have a record of the Park Service 
contributing to the construction of the trails.
    Mr. Rehberg. Thank you, Mr. Chairman.
    Mr. Radanovich. All right. Any other questions of this 
panel? Mr. Faleomavaega, please.
    Mr. Faleomavaega. Just one follow-up on my friend from 
Montana. And I just wanted to ask Mrs. Dobos again, when you 
indicated about the need to--hello?
    Mr. Radanovich. You need to speak up.
    Mr. Faleomavaega. I'm sorry. I deafen myself.
    I want to follow up on the question. Somebody turned the 
volume up I hope.
    I want to follow up on the concerns from Montana about the 
special interest groups that Mrs. Dobos raised and very valid 
too, but I'd like to ask her if she's aware that the United 
States Holocaust Memorial Museum, and the involvement of the 
Congress and Federal law was passed, some 200 million dollars 
was raised to build this memorial because of religious beliefs. 
We all know about the history, about six million Jews who were 
exterminated by the Nazi regime in those days, but the Federal 
Government has provided for this special museum. Would you 
consider this as something less as far as a special interest is 
concerned, about this important event that took place in World 
War II that we should honor those who died as a result of this 
Holocaust?
    Ms. Dobos. Mr. Chairman, I'm not really sure I understand 
the question. Let me address the matter of the Holocaust as 
being an enormous tragedy, and certainly having every right to 
establish a museum in their honor. What we're talking about 
today here is not so much that the Federal Government has 
supported public lands, or that they have contributed to 
special interest organizations, we're talking here just about 
what is now an established landmark, historic landmark that is 
protected under very specific laws of the United States. And I 
am an advocate, because that has worked so nicely in the past, 
I am in favor of just continuing that process. It's the old 
adage, you know, if it ain't broke, don't fix it.
    Mr. Faleomavaega. So you're not favorable to the LDS Church 
to purchase the land in Martin's Cove, but you are favorable to 
what the Federal Government has provided to honor the--those 
who died as a result of the Holocaust by building a national 
museum with Federal funds?
    Ms. Dobos. Mr. Chairman, I certainly respect the LDS and 
all of its members. I think on their private land they have 
absolute right to do whatever they please. I am speaking only 
of what I see now as a particular segment of national history 
that should be kept in the Federal hands, yes.
    Mr. Faleomavaega. Mr. Chairman, thank you.
    Mr. Radanovich. Thank you, Mr. Faleomavaega. Any other 
questions? Denny?
    Mr. Rehberg. No.
    Mr. Radanovich. Now's your time.
    Mr. Rehberg. You may not be able to answer this question, 
but being from Montana, public land ownership is always of some 
interest to us, with the land conservation bond there always 
seems to be more purchases, but I guess my question to you is--
I'm looking at the map. Was this land originally created as 
public property to protect this site by the Bureau of Land 
Management, do you know, or did this just end up being part of 
what the Federal Government owned in the state of Wyoming? Do 
you have any knowledge of the history of this property?
    Ms. Dobos. Mr. Chairman, is that question directed at me?
    Mr. Rehberg. Yes.
    Ms. Dobos. Would you please restate it.
    Mr. Rehberg. How did the Federal Government end up owning 
this property in the first place? It wasn't willed by God, so 
they must have acquired this property somewhere, somehow. Do 
you know how it ended up being in Federal ownership?
    Ms. Dobos. Mr. Chairman, it may have been willed by God, 
I'm not sure.
    Mr. Rehberg. To the Federal Government?
    Ms. Dobos. Perhaps. That's not part of my insight. It's 
part of an enormous block of land that was federally owned in 
the Granite Mountains and Rattle Snake Mountains, and an area 
called the Sweetwater Rock, and that's all I can tell you. The 
Sun Ranch is the--What you see is white on that map is the 
private land. Anything blue is state land, and the rest belongs 
to all of us.
    Mr. Rehberg. Do you know, Mr. Lorimer, how these mosaics 
were created, Federal and private ownership? And it seems like 
somewhere along the line part of the property went into private 
property. How did this 1600 acres end up in Federal ownership?
    Mr. Lorimer. I do not know the specifics of that. I do know 
that Tom Sun came to the Sweetwater Valley and homesteaded all 
that land you see in white, but the Sun Ranch management 
operations never made application to purchase that block of 
land, that section of land because it had no agricultural value 
to them. There's not water there, very little grazing, it's 
mostly rocks. That's why the Martin Company went there for 
protection, but I do not know, I do not believe the Federal 
Government set it aside to be protected.
    Mr. Rehberg. Thank you.
    Mr. Radanovich. All right. Any other questions of this 
panel?
    If there are none, Mr. Lorimer, Ms. Dobos, and Mr. Parady, 
thank you very much, very much for your testimony and your time 
to be here today. You're excused.
    Mrs. Cubin. Thank you.
    Mr. Radanovich. And I will go ahead and call our next 
panel, who is Mr. Lee Underbrink from Casper, Wyoming; Mr. John 
Jolley, Casper, Wyoming; Ms. Edna Kennell, Casper, Wyoming, and 
Mr. Lloyd Larsen from Lander, Wyoming.
    Welcome, everybody. And you can see where you have got to 
sit there.
    We will begin from left and work right. I know for some 
members of the panel the traffic signal is far away, but if 
everybody could be mindful of the 5-minute limitation, I'd sure 
appreciate it.
    Mr. Underbrink, welcome to the hearing, and please begin 
your testimony.
    Mr. Underbrink. I'll be 10 seconds over.
    Mr. Radanovich. If you wouldn't mind moving that mike up 
because I'm going to get some hands up.

          STATEMENT OF LEE UNDERBRINK, CASPER, WYOMING

    Mr. Underbrink. Congressman Radanovich and Committee 
Members, I've been a resident of Casper for forty years. I'd 
like to share my views on this purchase.
    The actual area of Martin's Cove is very small. The Church, 
through the land it already owns, has the only access to it. 
The Cove is a spiritual places for the LDS where the 
handcarters actually took refuge and many died. The Martin 
Company tragedy was the second largest loss of life in one 
event in the State of Wyoming, the largest being a coal mine 
disaster in Hanna in 1903.
    After Highway 220 was re-routed through the Sun Ranch, 
there was no markers or indication that something historic had 
happened in the area. I tried very unsuccessfully to convince 
the State of Wyoming to install an interpretive sign along 
Highway 220 explaining the event. My letters and conversations 
were met with absolutely no interest at all.
    Before the LDS purchased the Sun Ranch, visitation to the 
Cove was very restricted. If cattle were in the area you could 
not visit it. As more and more persons wanted to visit the 
Cove, a charge was made for crossing the Sun Ranch land to 
visit the small BLM portion of the cove. Even though I knew 
Bernard and Noline Sun, I was charged $30 to cross their bridge 
and go to the Cove. At that time I drove in the Cove and there 
was nothing but evidence of cattle bedding down. Now the area 
is pristine again with grass growing.
    The government had no signage it was BLM land or any 
indication that you should not drive anywhere you wanted to in 
the Cove itself.
    In other words, the State of Wyoming and the BLM had little 
interest in the preservation or interpretation of the site. The 
LDS have changed all this to make Martin's Cove available all 
with free access for everyone.
    The argument has been placed that this is a prehistoric 
Indian site. To my knowledge no organized excavation has ever 
occurred in the Cove.
    Indians, historic and prehistoric, undoubtedly used all the 
coves of the Sweetwater Rocks.
    The Oregon-California-Pony Express trail is located across 
the Sweetwater River and is on land already owned by the 
Church. With the prior owners, the Oregon-California Trails 
Association was not even allowed to place their white Carsonite 
markers that are now so useful to indicate where the trail is. 
The LDS welcomed such markings by that trails preservation 
organization.
    When the original bill--draft of this bill was made it 
directed the money to go to National Historic Trails Center 
here in Casper. Since this center is being built with BLM, 
state, county, city and private donations, this seemed like a 
good use of the proceeds. I would personally like to see this 
put back in the bill. Limiting the sale to the area--acreage of 
the Cove itself would be more acceptable, as would a clause 
guaranteeing the Cove would always be open.
    The argument of trading or selling historic land or any 
land by the BLM has always been contentious. It is very common 
for the BLM to trade lands making grazing allotments more even. 
It's even common for the BLM to limit access to certain areas. 
In many cases private land limits access to BLM land. This land 
should always be open to the general public.
    It took the purchase of the Sun Ranch to tell the Martin 
Handcart story. At the present they're reconstructing Seminoe's 
Fort, which was discovered in a recent archeological dig. One 
only has to visit the ranch to see how many people have access 
to this land. The LDS have invested a lot of money and time to 
make this an enjoyable place to live this history. In doing so 
they increased visitation to the State of Wyoming, and have 
created a new environmentally clean, interesting, and enjoyable 
tourist attraction that our entire state benefits from.
    I have yet to talk to anyone at the Martin Handcart Center 
that tried to convert me to his or her religion. The 
missionaries are kind, helpful, unpaid docents that volunteer 
their time and money to explain this site.
    The LDS Church has been very instrumental in the early 
development of Wyoming and the West. They settled much of the 
Big Horn Basin and Star Valley area. In my opinion the Church 
is a good Wyoming partner, and selling the Cove that they feel 
is so important to them is a payback from the rest of us for a 
job well done.
    Thank you.
    [The prepared statement of Mr. Underbrink follows:]

              Statement of Lee Underbrink, Casper, Wyoming

    Congressman Radanovich and committee members:
    I have been a resident of Casper for 46 years. I would like to 
share with you my views on this purchase.
    The actual area of Martin's Cove is very small and the Church, 
through land it already owns, has the only access to it. The cove is a 
spiritual place for the LDS where the handcarters actually took refuge 
and many died. The Martin Company tragedy was the second largest loss 
of life in one event in the State of Wyoming, the largest being the 
coal mine disaster in Hanna in 1903.
    After Highway 220 was re-routed through the Sun Ranch there was no 
monument or indication that something historic had happened in the 
area. I tried very unsuccessfully to convince the State of Wyoming to 
install an interpretive sign along Highway 220 explaining the event. My 
letters and conversations were met with absolutely no interest at all.
    Before the LDS purchased the Sun Ranch visitation to the cove was 
very restricted. If cattle were in the area you could not visit. As 
more and more persons wanted to visit the cove a charge was made to 
cross the Sun Ranch land to visit the small BLM portion of the cove. 
Even though I knew Bernard and Noline Sun I was charged $30 to drive 
across their bridge to go to the cove. At that time I actually drove in 
the cove where there was nothing but evidence of cattle bedding down. 
Now this area is pristine again with the grass growing. The government 
had no signage that it was BLM land or any indication that you should 
not drive in the cove itself. In other words the State of Wyoming and 
the BLM had little interest in preservation or interpretation of the 
site. The LDS have changed all this to make Martin's Cove available to 
all with free access that protects the environment.
    The argument has been placed that this is a pre-historic Indian 
site. To my knowledge no organized excavation has ever occurred in the 
cove. Indians, historic and pre-historic undoubtedly used all the coves 
of the Sweetwater Rocks.
    The Oregon-California-Mormon-Pony Express trail is located across 
the Sweetwater River from the cove and is on land already owned by the 
church. With the prior owners the Oregon-California Trails Association 
was not allowed to place the white Carsonite markers that are now so 
useful to indicate where this trail is. The LDS welcomed such marking 
by that trails preservation organization.
    When the original draft of this bill was made it directed that the 
money from the sale go to The National Historic Trails Center here in 
Casper. Since this center is being built with BLM, State, County, City 
and private donations this seemed like a good use of the proceeds. I 
personally would like to see this clause put back in the bill. I would 
also like to see the clause that guaranteed that Martin's Cove would 
always be open to the general public.
    The argument of trading or selling historic land or any land 
governed by the BLM has always been contentious. It is very common for 
the BLM to trade land to make grazing allotments more even. It is very 
common for the BLM to limit access to certain areas. In many cases 
private land limits access to BLM lands. This land should always be 
open to the general public.
    It took the purchase of the Sun Ranch to tell the Martin Handcart 
story. At the present time, they are reconstructing Seminoe's Fort 
which was discovered by a recent archeological dig. One only has to 
visit the ranch to see how many people now have access to this land. 
The LDS have invested a lot of money and time to make this an enjoyable 
place to live this history. In doing so they have increased visitation 
to the State of Wyoming and have created a new environmentally clean, 
interesting, and enjoyable tourist attraction that our entire state 
benefits from.
    I have yet to talk to anyone at the Martin Handcart Interpretive 
Center that tried to convert me to his or her religion. The 
missionaries are kind, helpful, unpaid docents that volunteer their 
time and money to explain the site.
    The LDS church has been very instrumental in the early development 
of Wyoming and the West. They settled much of the Big Horn Basin and 
The Star Valley area. In my opinion the church is a good Wyoming 
partner, and selling the cove they feel is so important to them, is a 
payback from the rest of us for the job well done.
                                 ______
                                 
    Mr. Radanovich. Thank you very much, Mr. Underbrink.
    Mr. Jolley, welcome to the Committee, and please begin your 
testimony.

           STATEMENT OF JOHN JOLLEY, CASPER, WYOMING

    Mr. Jolley. Thank you, Mr. Chairman, and the rest of the 
Committee for giving me the opportunity to speak with you, and 
especially to you, Mrs. Cubin. I really do appreciate that you 
have made these arrangements.
    I have some twelve pages of written testimony, and because 
of time constraints I will try to be restrictive of my comments 
today, and I hope I get to my last one which I do believe there 
is a viable alternative.
    First of all I would like to say that I do speak in 
opposition of H.R. 4103, also known as Martin's Cove Land 
Transfer Act.
    I have spent the last 7 years of my life exhaustively 
studying public access and the sale or exchange of public lands 
in Wyoming, and I can assure you this bill will not enhance 
public access, it will not enhance recreation. This is 
farfetched, even though it's in the bill. It will not enhance 
educational opportunities. Access to the Cove to receive 
educational guidance from the LDS missionaries or bias 
historical interpretation is not the type of access the 
majority of people in the United States would consider an 
education.
    I am also opposed to H.R. 4103 because it would sever those 
public lands from a much larger block of the land. Private 
ownership by a religious group may also deter other religions 
from visiting that corridor area.
    There currently is, and always has been, legal access to 
Martin's Cove through a large block of public lands to the east 
and north of the Cove.
    I believe it is possible that later on, that the Church may 
close off public access, at least on those days when they may 
be engaging in some type of a religious ceremony, and any 
public access would be determined by the rules the Church wants 
to impose on the public.
    I'm also opposed because the Church is asking for 1640 
acres, although the Cove is only about 220 acres, and there's 
only about 50 to 60 acres that were ever used by the Martin 
Handcart Company.
    The Church has admitted publicly there are no problems with 
the current arrangement with the BLM. And I believe it's only 
through BLM control, presence of retaining public ownership in 
all public lands in this historic corridor that the historic 
integrity of Independence Rock, Devil's Gate and the corridor 
can be preserved.
    I'd like to talk just a moment on the preservation, and the 
preservation of what? One reason has been given to advance this 
bill is Mormons are better at preserving the history of the 
valley.
    Rather than preserving the history of this historic 
corridor, the history that the LDS are preserving and publicly 
presented is the LDS history, the LDS interpretation, the LDS 
religious experiences, and the LDS literature. This version and 
interpretation is overshadowing, and nearly obliterating the 
rest of historic significance of the Sweetwater Valley.
    In fact on one I attended this week of 70 minutes, there 
was only 5 minutes that was used to talk anything about the Sun 
Ranch or the other historic trails, with the other 65 minutes--
the Hub and Spoke Ranch, which was totally gutted, the rest of 
the time was spent on interpreting the Mormon vision of the--of 
the history.
    And, you know, the preservation, one of the most historic 
things out there is the Sun Ranch and when that was established 
and history behind it. In fact, it's so historical that there's 
a book, Historic Ranches of the Old West. There's only nine 
ranches, and one of them is the Sun Ranch, and that history is 
being replaced rapidly. The first thing that came down was the 
signs, Tom Sun Ranch signs, and now it says the Handcart Ranch 
Company.
    We have to look at what we're really preserving when we 
turn over our public lands. I believe just because the BLM has 
not turned it into a type of tourist attraction, they've really 
preserved this land. That's why it's in the pristine condition 
it is now.
    If a person would go back up the road just a little bit, 
follow the creek, and we're talking about--Let's talk about 
sacred sites for just one moment. And there is--the Baptists 
probably have the first claim to this area because there's a 
grave site, 1847, with the name of Frederick Richard Falckerson 
(phonetic) on the Oregon Trail in this vicinity, and this was 9 
years prior to the LDS claim of the--of the Martin Company, and 
they had over 300 members of the Old Forest Baptist Church 
which became bound for Oregon. They were divided into groups, 
the Plains Baptist Church encountering several deaths, and they 
do have a gravesite. And I'm wondering how, if we act now, if 
all of a sudden Baptists now wanted to come to us and say that 
we want to have Devil's Gate and that area.
    Now--
    Mr. Radanovich. Be mindful of the red light. If you would 
sum up.
    Mr. Jolley. I will say then in my summation, that this is 
setting a new precedence. It's a changed process, and I believe 
this is bad. Wyoming did go through this process when we talked 
about the Medicine Wheel, and the vocal opponents are the same 
ones now that are supporting this.
    And I do believe, finally, that the reason to support or 
oppose this, based on money, is a terribly selfish reason, that 
the money should go to Wyoming. That should not be the reason, 
the critical reason. Thank you.
    [The prepared statement of Mr. Jolley follows:]

                Statement of John Jolley, Casper Wyoming

    I oppose passage of H.R. 4103, also known as the ``Martin's Cove 
Land Transfer Act.''
    My testimony is partially based on the knowledge and experience 
that I have gained regarding, not only proposed and actual sales and 
exchanges of state and federal lands within the borders of Wyoming 
since 1995, but also upon a continuing examination of the management of 
both state and federal lands in that time frame. My endeavors and 
knowledge regarding land issues in Wyoming have been cited in the 
prestigious Wyoming Land and Water Review (a publication of the Wyoming 
Law School), the Seattle Times (Seattle Washington), Denver Post 
(Denver Colorado), High Country News (Colorado and western states) and 
almost every newspaper, television, and radio stations throughout 
Wyoming. Since 1995, there have been few proposals or actual sales or 
exchanges of state or federal lands that I have not thoroughly 
examined. These examinations have included visual inspections, review 
of government or state files, review of archaeology, cultural, historic 
values, interviews or review of both expert and public opinions. Based 
on my review of public land sales and exchanges since 1995, many 
proposed land sales or exchanges failed because they were not in the 
public's best interest.
    In one federal land exchange in 1996, as a result of my appeal to 
the Interior Board of Land Appeals regarding the ``Big Trails Land 
Exchange'' in Washakie County, Wyoming, a change in requirements in the 
appraisal process was instituted nationwide by the Department of 
Interior to help resolve self-dealing and conflicts of interest.
    Therefore, relying upon my experience and knowledge, I testify in 
opposition to the sale of those public lands in Wyoming referred to in 
the ``Martin's Cove Land Transfer Act'' for the following reasons:
I. Equal and unbiased preservation of ALL the national significance in 
        the corridor
    The public deserves to have government oversight to preserve ALL 
the historic significance of the Sweetwater Valley in an unbiased 
manner rather than allowing one historic event to overshadow the many 
other national and state historic events and significance. The only way 
to guarantee that the public's interest and interpretation can be 
preserved is to retain public ownership and control of all public lands 
in this historic corridor.
    a). Although proponents of the bill may argue that the Mormon 
Church (reference in my testimony to the Mormon Church or Mormons is 
not intended as disrespect for the Church or its members) can do the 
better job of preserving the historic and physical integrity of the 
public lands in this corridor, including Martins Cove, than the Bureau 
of Land Management (hereinafter referred to as the BLM), I believe 
evidence of what the Church has done and plans on doing on their 
private lands in this historic corridor point to a different 
conclusion. The Church is engaged in a religious and commercialization 
venture which, I believe is compromising the integrity of the history 
of the Sweetwater Valley and although they have this right on their 
private property, a defeat of H.R. 4103 will prevent the transfer of 
our public property to private property and will help ensure the 
integrity of the Sweetwater Valley.
    Evidence of compromising the integrity and preservation of the 
historic significance of the Valley by the Church is already prevalent. 
From the moment the Mormon Church signed the papers to purchase the 
``Hub and Spoke Ranch'' from the Sun family in 1996, they began 
compromising the history and integrity of the entire Sweetwater Valley.
    There is not a history book written about the Sweetwater Valley or 
Devils Gate that fails to talk of the historic nature of the ``Hub & 
Spoke'' or ``Tom Sun Ranch.'' John Clay, writing about it in the 1800s 
has numerous passages in his book, ``My Life on the Range'' relating to 
the ranch. The historical significance of the ``Hub and Spoke'' is so 
widely recognized that it is listed in the book ``Historic Ranches of 
the Old West,'' by Bill O'Neal, (Only nine ranches in Wyoming were 
distinguished and listed in this book). ONeal wrote, ``When Tom Sun 
established his Hub and Spoke Ranch in the shadow of the Oregon Trail 
landmark Devils Gate, he became perhaps the first permanent settler in 
Wyoming's beautiful Sweetwater Valley. The name, Hub and Spoke, evokes 
some of the most colorful and questionable history in Wyoming and the 
West. The Sun Ranch buildings are listed as Registered National 
Historic Landmark.
    Even though the name, ``Hub & Spoke'' has such historical and 
national significance, the name was changed to the Handcart Ranch 
immediately after it was sold in 1997. Soon after it was sold the 
church placed a large sign alongside the highway advising the public 
that this was now the Handcart Ranch, obliterating and destroying much 
of the historical significance of the area.
    b). Others have complained of other actions of the church in 
failing to preserve the historical nature of the Sweetwater Valley. 
They complain that the Mormon Church is engaging in their own selective 
interpretation of history. After converting the Hub and Spoke ranch 
headquarters into a major LDS visitor center, in 1997 the church began 
conducting interpretive lectures to visitors.
    Last year, the Salt Lake Tribune interviewed the Oregon California 
Trails Association (OCTA) preservation officer and past president of 
the organization, Dave Welch. Welch told of an OCTA tour of the area 
where ``Trail buffs'' complained that church missionaries focused 
exclusively on the Mormon handcart disaster episode without proper 
acknowledgment of the other historic trails that followed the same 
alignment; the Oregon, California and Pony Express National Historic 
Trails. Welch was quoted as saying, ``They invited us into a converted 
barn, basically locked the door, gave a oneliner to the other trails 
and the rest of the talk was about the Mormons.'' Welch explained that 
some of their members felt it was a narrowly constrained version of 
history.
    c). It is reasonable to believe the church will continue their 
practice of displacing a lot of history with their own interpretation 
if H.R. 4103 passed and they acquired ownership of our public land 
overlooking the Sweetwater Valley. I and other critics of this bill 
fear that other historical events are all going to be dwarfed by the 
Mormon historical perspective.
    d). Other preservation concerns besides the Church's compromising 
of historic events that do not convey their religious message abound. I 
and many others are concerned with the lack of protection of the land 
and nature of the area. The Western Land Exchange out of Seattle 
Washington and others have expressed their concerns about the 
``intensive development'' by the church on their private property and 
the impact this will have on our public lands if they also become 
private and the other public lands adjoining this development.
    Since the Mormon Church purchased the historic Sun and Spoke Ranch 
in 1996, there has been an all out effort to turn the Valley into a 
Mormon religious shrine. The church has been encouraging mass 
pilgrimages to the Valley to allow people to achieve the Mormon 
religious experience. Newspaper reports indicate that in 1997 there 
were 70,000 people, 1998- 46,000 people, 1999 37,000 people and in 2001 
in excess of 45,000 people who visited the site. If H.R. 4103 passes 
and the church continues its development, it is projected that as many 
as 100,000 converts, missionaries and other visitors will come to the 
valley.
    The church has hundreds of handcarts for their religious following 
to push or pull approximately 4 miles to gain spiritual experiences. 
They have built a visitors center. They have built a location where 
Mormon missionaries quilt. In their zeal to promote their religious 
experience, I and others believe that they are destroying the pristine 
nature, the solitude, and the fragileness of the Sweetwater Valley.
    In 1997, the National Park Service, Department of Interior -- 
California, Mormon, Oregon & Pony Express National Trails in Salt Lake 
City also expressed concerns with the impact of the ``large increase in 
visitors.'' They wrote: ``There are three other national historic 
trails on the same alignment as the Mormon Pioneer National Historic 
Trail. Impacts on resources related to all the trails will be 
considerable. Heavy visitation threatens not only the dunes at Martins 
Cove, but the inscriptions near Devils Gate. Vehicular and foot travel 
will temper the experience visitors have within the sight line of the 
Sun Ranch, Devils Gate and Martins Cove.'' The Park Service warned, ``A 
cap should be placed on living history participants using handcarts to 
Martins Cove.''
    The Park Service was also concerned with the interpretive services 
when they wrote, ``historical context for all the national historical 
trails is paramount.''
    e). The 1997 BLM environmental assessment (EA) contained concerns 
about the lack of preservation of the area.
    The EA from the Rawlins District, EA WYO36EA7003, stated, ``Changes 
have occurred over a short time. New foot trails and evidence of motor 
vehicle use off of existing roads can be seen. Recent off-road and off 
trail activity has damaged vegetation which has exposed soil to wind 
erosion.'' The EA was also concerned with the impact on animals and the 
character of the area. ``High level of human activity would disturb 
wildlife species such as pronghorn antelope, mule deer and raptors. In 
the course of a year Martins Cove would be transformed from a nearly 
pristine area into a place where the impact of human use is very 
obvious.'' The EA stated, ``It has become almost a religious pilgrimage 
to visit the site.''
    f). There is no doubt that the Mormon Church can do as it pleases, 
as it has done, regarding development of their private property for 
their religious purposes, but there should be no doubt that if our 
public property is sold to them and it becomes private property, they 
will then be able to also do as they please with and on what had been 
our public property. We, the public will have no say or oversight.
    I and many others believe that if H.R. 4103 passes and the Mormons 
are given private property rights to the public land in the Sweetwater 
Valley including the Devils Gate and Martins Cove area, there is little 
doubt that the Mormon presence will dominate and overshadow all other 
historical events that have taken place there in the past 160 years.
    g). To any legislative bodies who listen to those who support this 
bill based upon the argument that the Mormon Church will preserve our 
public lands under private property rights should the best should 
question, ``Since when has the criteria to sell our public lands to a 
private or religious enterprise been on the basis of differing 
arguments as to who will take the better care of it?'' Subjective 
arguments such as this have never been the criteria as to whether to 
retain or sell our public lands and never should be.
II. Tourism
    There are some who would propose to sell these public lands based 
on a tourism argument and the increase in tourism dollars that might be 
spent in our local communities. The Mormon Church is presently 
developing tourism and religious sites on their private land adjacent 
to the Cove. The Mormon Church has use, as well as the public does, of 
Martins Cove under a cooperative agreement with our BLM. Since the BLM 
has developed and built an extensive trail system to the Cove, there is 
absolutely no reason to believe that the Church will forsake that 
agreement when it expires, but will renew so they also, can continue to 
use our public lands in the Cove. Despite whether our public lands are 
sold to the Church or not, the Church has extensive building programs 
being developed on their private lands and tourism will not be affected 
one iota whether our public lands are sold or not.
    a) Rawlins Wyoming Chamber of Commerce has been promoted to support 
this bill on the basis that they will receive a heavy influx of tourism 
money. Many dispute the amount of money that Rawlins will realize in 
the long run beyond some gasoline purchases. First, the closest large 
city to Independence Rock/Devils Gate is Casper, a city to the north. 
Casper would be the logical overnight stay for many. Unlike Cody 
Wyoming and Jackson Wyoming, the tourist dollars that Rawlins would 
receive would be at a minimum as many of the Mormon faith travel in a 
frugal manner, packing their food supplies with them.
    b). From a high of 70,000 visitations to the Sweetwater Valley in 
1997, the year the Mormons took possession of the Sun and Spoke Ranch, 
visitation dwindled in 1998 to 46,000 people, dwindled even further in 
1999 to 37,000 people with an increase to 45,000 in 2001.
    c). Any large influx of tourist to the Mormon commercial and 
religious sites on their private property is one of the very reasons 
that it is important to defeat H.R. 4103 to enable our local BLM to 
continue to have control on our public lands and the fragile sand dunes 
in the area on our public land.
    d). Although the Mormon pilgrimages to their private land adjacent 
to Devils Gate may have an effect on an increase of Mormon followers 
and converts who visit the area, it could have a negative effect on 
others who may have stopped at the BLM interpretive sites to visit the 
Oregon, California, Pony Express Trails and the other historical 
significant sites in the area. After seeing large Mormon signs 
alongside the highway, one overlooking Devils Gate and all the trails 
such as the one which proclaims, ``A Historic Site of the Church of 
Jesus Christ of Latter-day Saints,'' people of other religions may 
intentionally pass by and fail to stop.
III. The sale of this public property is in contravention of the goals 
        of the Resource Management Plans
    The BLM's own studies and 1986 Resource Management Plan (RMP) never 
contemplated disposing of these lands. BLM uses a coalition of experts 
over a period of years to plan and write their resource management 
plans for various areas within their districts. As a result, their RMP 
lists those lands that would be advantageous for BLM to dispose of. 
These lands are not on the disposal list, but were intended to be 
retained. The purpose of an RMP is to allow for long range goals. If 
H.R. 4103 is passed, with one fell and swoop, the RMP and its goals of 
retention of these public lands will be diminished.
IV. H.R. 4103 would sever these public lands from a much larger block 
        of public land
    There is not a BLM District in Wyoming that does not have as its 
goal to block public lands into larger blocks of lands. None have as 
their goal to sever public lands from larger blocks. In the present 
case, the public lands encompassing Martins Cove are part of a hundred 
thousand larger block of public land. Passage of H.R. 4103 and severing 
a 1640 parcel of public lands from the larger block of public lands is 
in contravention to decade long goals of BLM.
V. Public Access
    a). In contravention to what has been said in some circles, there 
currently is and always has been legal public access to Martins Cove 
through a large block of public lands to the east and north of the 
Cove. It would be feasible and possible for a recreational planner with 
BLM to mark out a walking trail from the east on public state lands 
near Devil's gate or from the north, northeast on public BLM lands. 
Lands accessible by trail are becoming more popular by some citizens as 
the preferred method to escape the crowds who can access public lands 
by road.
    b). H.R. 4103, states that the public land will be conveyed to the 
Corporation of the Presiding Bishop ``for the purpose of public 
education, historic preservation, and the enhanced recreational 
enjoyment of the public.'' There is not one mention in the bill of a 
guarantee of public access.
    c). Even if some type of window dressing public access were to be 
later introduced into the bill, this would not cure the public access 
opposition to selling these public lands, but would, in my opinion, 
only be a method to try to placate public opposition.
    Presently, the Church, through a cooperative agreement with BLM, 
does allow limited public access to cross their private lands to access 
the Cove. In exchange, BLM has spent approximately $200,000+ in time, 
materials and labor to mark and develop footpaths to the Cove.
    But I believe there is little doubt that the church's reason to 
purchase our public lands is not to give or promote public access, but 
to restrict, control and limit public access. This would not only 
include the 200 some acres in Martins Cove, but also a large block of 
additional public lands. The Church is not content to just purchase the 
50 to 60 acres that the 1856 campsite would have covered in the cove or 
the 200 220 acres encompassing the entire cove, but they want to 
control and own 1640 acres of our public land, a distance in excess of 
2 miles long by 1 mile in width!
    Regarding public access, Representative Hansen from Utah, the prime 
sponsor of the bill, was quoted recently in the Casper Star Tribune 
saying, ``I've never seen the LDS Church cut people out.'' I would 
respectfully ask Representative Hansen and his colleagues to review 
documentation of the Church's past attempts to ``cut people out.''
    Several years after the church had purchased the Sun Ranch in the 
Devils Gate area, they attempted to ``cut people out'' from public 
lands. They erected several ``Private Property, No Trespassing'' signs 
on the public land. It was not until August 2001; after the BLM told 
them they must remove the signs, that the signs were finally removed 
from our public land.
    If Hansen and his colleagues had visited the Cody area several 
years ago, he could have seen the fishing area that the Mormon Church 
(Deseret Ranches) had developed on their property. For only a few 
hundred dollars a day, the public was ``not cut out'' from a day of 
fishing. In one of their private hunting ranches on the Utah/Wyoming 
border near Evanston, they ``cut the people out'' by charging huge fees 
to hunt.
    If H.R. 4103 is passed, the sale will give exclusive ownership and 
control of an additional 1640 acres of public land at Devils Gate to 
the church. Records in the Rawlins BLM offices reflect that of the 
104,216 acres that BLM describes as the Handcart Ranch allotments, only 
19% of these lands in the allotments are private 81% are either public 
BLM or Wyoming state lands.
    d). I believe Representative Hansen and others who are supporting 
H.R. 4103 are giving false assurances that the Mormons will allow 
public access to the public lands.
    In November 2001, Lee Underbrink, a member of the Casper Oregon 
California Trails Association, (an Association with members of less 
than 60 Wyoming residents) assured the public that they would have 
public access if the lands in the Devils Gate area were sold to the 
church. He wrote, ``The Mormons are good caretakers of their property, 
as anyone who has walked Temple Square will testify. Commenting on the 
then draft bill, he said, ``The bill specifies that the church will 
keep the cove open and welcome to all.''
    I would challenge Mr. Underbrink and others who believe that the 
``church will keep the cove open and welcome to all,'' to visit Temple 
Square in Salt Lake City. In 1999, the church wanted to own a two-acre 
public block that belonged to the city. The city relented after an 
easement agreement was provided which allowed 24-hour public access 
from North Temple to South Temple streets. But the Mormons included a 
provision in the easement that effectively let them set the rules and 
restrictions on the public easement. Those rules included the exclusive 
rights by the Mormons to distribute literature and broadcast music and 
speeches on the two acres of prior public land. In April 2002, the Salt 
Lake Tribune reported that two Baptists were arrested on criminal 
charges because they were handing out leaflets on the public easement. 
The LDS released a statement which explained that the arrests 
demonstrate ``why it is critical to the church to retain private 
property rights . . .'' The Tribune reported, ``The church maintains 
that since the two acre plot is now private property, and that the 
church, as private property owner, can do as it pleases.'' Attorneys 
for the two Baptist claim the easement restrictions are illegal. ``We 
see the Baptists wind up in jail while the Mormons can pass out their 
literature.'' I believe that those who hear assurances that ``the 
church will keep the cove open and welcome to all'' should perhaps 
review past Church actions.
    e). Concerns about closing off public access if the sale is allowed 
to go through have also been voiced outside Wyoming. Last year, the 
Salt Lake Tribune wrote that they have, ``Some question whether church 
ownership will limit public access'' if the Hansen bill is enacted.
    d). There is little doubt that once this public area has been 
turned into a pilgrimage site, the church intends to close off public 
access, at the very least, on those days when they are engaging in 
religious ceremonies and any public access would be determined by any 
rules the church wants to impose on the public.
    Reliable sources also note that the church was asked to give a 
perpetual public access easement to public lands in the cove or 
adjacent public lands to guarantee public access, but they refuse to do 
so.
VI. Access for public educational
    When the first draft bill came out last year, Wyoming's 
Representative Barbara Cubin assured the public, ``In any proposal, 
public access to the site for its historical value and educational 
purposes would be guaranteed.''
    Access to the cove to receive ``educational'' guidance from Mormon 
missionaries or biased historical interpretation is not the type of 
access that the majority of the public would consider an ``education.''
VII. Enhanced public recreation
    In addition to public education and historic preservation, H.R. 
4103, states that the public land will be conveyed to the Corporation 
of the Presiding Bishop for ``enhanced recreational enjoyment of the 
public.''
    To many of those opposed to the bill, a reason to sell the land to 
the church for ``enhanced recreational enjoyment of the public'' 
appears to be far fetched. The church has admitted they want to 
purchase the public lands for religious purposes.
    Lloyd Larsen, president of the Mormon Church stakehouse in Riverton 
has been quoted as saying that the church has sought the land sale to 
``make certain that Martins Cove is (I oppose passage of H.R. 4103, 
also known as the ``Martin's Cove Land Transfer Act.'') Page 9 bought 
and preserved as a sacred historical site for everyone to visit,'' and 
where they may ``go to be inspired.''
    I believe it would take a long stretch of imagination to find any 
opportunity for ``enhanced recreational enjoyment of the public'' 
unless a ``religious experience'' is also an ``enhanced recreational 
enjoyment'' for the public. One must question what kind of ``enhanced 
recreational enjoyment of the public'' the bill refers to when the 
Mormon Church is building a sacred site to enable the Mormons to ``go 
to be inspired.'' Unless the public considers indoctrination to church 
doctrine as ``enhanced recreation,'' there will be no public ``enhanced 
recreation'' in the area as a result of the sale.
VIII. Church admits there are no problems
    Lloyd Larsen, a Church spokesman has also been publicly quoted as 
saying that the motivation to buy Martins Cove is not based on any 
problems with the BLM. He said, ``We just want to ensure stability of 
future access to the site.''
    a) Larsen wants to ensure stability of future access to the site 
for the Mormon Church--conversely, this is an important reason why H.R. 
4103 should be rejected--to ensure stability of future public access to 
our public lands.
    The only assurance of public access to these public lands and the 
other thousands of acres of adjoining public lands can only be 
guaranteed by the continuing BLM presence in the area. The same reason 
Larsen gives to assure the Church's ``stability of future access'' is 
one reason, of many, that our elected officials should give in opposing 
this bill.
IX. Proceeds of the sale
    There are some who have publicly stated that they oppose the sale 
because the proceeds of the sale would go to the Federal Government 
rather than to Casper's National Historic Trails Center. In the Wyoming 
Trails Newsletter (May 2002, Newsletter Editor Lee Underbrink), it was 
written that Wyoming's delegation opposed the bill because ``there is 
nothing for the people of Wyoming to support it.''
    I and others cannot fathom a more selfish reason to base ones 
position on whether to sell or retain our public lands in a National 
Historic Corridor. It is my opinion that these public lands and all the 
public lands in the corridor were part of history and to base support 
or opposition to the sale on a bribe, whether a tourist site in Casper 
will receive $300,000 or whatever the appraisal price is, borders on 
prostituting our public lands.
X. Adjacent State Lands
    The importance of all lands within this entire corridor and the 
impact they can have on the four national historic trails and other 
historic events is evident by the designation of state lands adjacent 
to Devils Gate. In 2001, a section of state land was designated as 
``rare and uncommon'' by the Wyoming Department of Environmental 
Quality. Each and every commercial or religious venture in this 
historic corridor has a detrimental impact on preserving the integrity 
of the Sweetwater Valley.
XI. Conclusion
    a). One cannot cure H.R. 4103 by amending the bill with a provision 
of ``public access.'' The best guarantee of future public access to our 
public lands in the Cove area is through public ownership and control.
    b). One cannot cure H.R. 4103 by amending the bill with a provision 
that guarantees that the proceeds will be channeled to Casper's 
National Historic Trails Center. These lands are public lands; not just 
Wyoming public lands and the decision on whether to retain or sell them 
must be made solely on the best interest of the public.
    c). We cannot base a decision to sell our public lands based upon 
arguments as to who will better protect and preserve them. This is a 
subjective argument, with the result of such argument being determined 
on political favors. If we start introducing the criteria that a 
private or religious enterprise is better equipped to control our 
public lands, there will be no end to those who will scramble for 
special legislation to allow them a preferential and exclusive right to 
purchase our public lands.
    In the same vein, we should not embark down the road of selling our 
public lands to those who claim that they are sacred to them. Not only 
is this one of the most dangerous precedents (and especially so because 
many people believe that the U.S. government stole a large amount of 
the lands they now manage from our American Indians), but it should 
also be remembered that sacred sites on public lands may not have 
special meaning to just one religious group, but may be sacred in other 
ways to the general public.
    d). Evidence is already abundant that the Church is promoting this 
National Corridor in an unequal and biased interpretation of history. 
The Mormon Church is entitled to do as it pleases on its private 
property--and they have--but if H.R. 4103 passes, our public land will 
become their private property and therefore the public will have no 
control over what was once public property. The people of the United 
States have a right to an unbiased and equal interpretation of this 
corridor. Evidence is already apparent that the Church is engaging in 
preserving and enhancing the ``Mormon version of history,'' but I and 
others fear that the Mormon version will overshadow and nearly 
obliterate the rest of the historical significance of the Sweetwater 
Valley.
    e). It is only through BLM control, presence and retaining public 
ownership in all public lands in this historic corridor that the 
historical integrity of the Independence Rock/Devils Gate and the 
corridor can be preserved.
    Just because BLM has not defaced these public lands by turning them 
into a tourist attraction or shrine or temple does not mean they have 
not been preserved. In the past, the BLM erected interpretive sites 
which encouraged all people to silently reflect equally upon all the 
trails, including the California, Oregon, Mormon and Pony Express 
Trails and the wide corridor they all encompassed, the significance and 
hardships of all pioneers, cattle drives, emigrants and all those who 
passed through this corridor. In the past, it was a place where all 
could give reflective thought in the peace, quiet and solitude of the 
valley. Prior to the Mormons purchase of the historic Sun and Spoke 
Ranch, the corridor, including Martins Cove, which overlooks the trails 
was a place where deer, antelope and other wild animals frequented.
    The Park Service has warned, ``A cap should be placed on living 
history participants using handcarts to Martins Cove.'' It is only 
through public ownership and control that the BLM can monitor and 
enforce this.
    f). Several times in the past, those who have not been able to pass 
public scrutiny with land exchange proposals have resorted to special 
legislation to escape public opposition. This should not be allowed to 
happen in H.R. 4103. Records reflect that the Mormon Church approached 
the BLM to discuss a land exchange and made only one formal proposal. 
In that proposal, the private lands that the Church were offered to the 
public, in comparison to these public lands that overlooking and are a 
part of the public corridor, were not, in the opinion of the local BLM 
in the public's best interests. Apparently the Church then elected to 
try a religious/political maneuver to get ownership of our public lands 
which resulted in the sponsorship of H.R. 4103. The best information I 
have available indicates that every one of the sponsors to date, 
including the prime sponsor, Representative Hansen, are of the Mormon 
faith. If so, I believe H.R. 4103 is nothing more than a religiously 
influenced bill motivated by the Church's desire to bypass the usual 
procedure in Wyoming to get ownership of our public lands, but instead 
are asking for special state/church considerations.
    Ironically, the Mormon Church is one of the most affluent churches 
in the world. It is one of the largest landowners of private land in 
the United States. It is one of the largest landowners of private land 
in the Devils Gate and surrounding corridor of the four historic 
trails. They have asked for special legislation because, as their 
spokesman has stated, the Cove is a sacred site. One would believe that 
if these public lands are so very sacred to the Church, so sacred that 
they are now asking for special legislation, that with their vast 
financial and land wealth, they would have previously offered private 
lands to the public through a fair and equitable exchange process that 
would have been in the public's best interest, rather than negotiating 
on a one-sided basis--before asking for special privileges through H.R. 
4103.
    Perhaps as a viable alternative to H.R. 4103, to get their 
``sacred'' site, Martins Cove, the Church should go back to the 
customary land exchange process and offer to trade 1640 acres of the 
Sun and Spoke Ranch, including the national historic buildings which 
are on the banks of the Sweetwater River; or perhaps a complete 
inventory should be done of those public lands where the Mormon Church 
controls and denies public access in Wyoming to public lands and 
exchange Martins Cove for permanent public access.
    Thankfully, our BLM managers rejected the one formal proposal 
offered by the Church in a land exchange proposal because it was not in 
the public's best interest--and they would have been remiss in their 
duties and responsibilities to the public if they had not done so.
    I believe our elected officials have the same responsibility to the 
public and should now do the same and reject H.R. 4103.
    (Although I believe that this bill is nothing more than a 
religious-influenced piece of legislation, nothing in my testimony is 
meant to show any disrespect for Mormons or the Mormon Church. Some may 
attack those who oppose this legislation as anti-Mormon, but nothing in 
my testimony is such. In fact, my mother and father, my sisters and a 
great deal of my family heritage are of the Mormon faith, all of whom I 
have the greatest love and respect for).
                                 ______
                                 
    Mr. Radanovich. Thank you very much, Mr. Jolley.
    Ms. Edna Kennell, welcome to the Committee. If you'd like 
to begin your testimony. And if I may suggest too that you move 
the mike up to you as close as you can.

           STATEMENT OF EDNA KENNELL, CASPER, WYOMING

    Ms. Kennell. Good morning, Chairman Radanovich, Members of 
the Committee.
    Mr. Radanovich. Even more, I'm getting a lot of waving 
hands.
    Ms. Kennell. They like you. My name is Edna Kennell. I 
reside at 1661 Nottingham--
    Mrs. Cubin. Excuse me, Mr. Chairman. Take it out and hold 
it up if you can. Just comes right out of there.
    Ms. Kennell. Is that better? I am a student of history and 
supporter of cultural tourism and the benefits that it brings 
to Wyoming and Natrona County.
    We all benefit, as the Church of Jesus Christ of Latter-day 
Saints celebrates their history. The Handcart Center, located 
approximately 60 miles from Casper, opened in May 1997, and has 
had 75,000 to 80,000 visitors per year. When we use published 
figures from the Department of Tourism, this equates to 
$11,220,000.00 added to the Wyoming economy. Natrona's share is 
$591,000.
    Ten years ago, when we first started the National Historic 
Trails Center, many of the same people in this room knew 
little, if anything, about the Handcart disaster, or the 
Handcart triumphs, and when we started making presentations 
asking for public money with the Historic Trail Center we 
talked about a Cove to tell about the Handcart. Many thought we 
were crazy. Very few people were interested in the story and 
the location, but now they all claim that this is part of their 
history and their heritage.
    The Sun family was a good steward of the land when it was 
used for grazing only, but there was little public access to 
the Cove. Since the Church of Jesus Christ of Latter-day Saints 
purchased the ranch, they allow anyone and everyone to enter 
the Cove at any time. They've done an excellent job in 
maintaining the site, and are willing to share their history.
    In 2001 we had the Oregon/California Trails Association 
Convention here, which I was the Chair, and they were most 
gracious in allowing us to come to the ranch, offered us some 
of the barns to get out of the elements, provided lemonade and 
water for the entire group of 400 people.
    Three years ago the elders from the Church appeared before 
the Natrona County Planning Commission about building some 
additional structures, and a water tank on their deeded land. 
At that time only three or four individuals and myself came to 
object to the placement of the water tank and the buildings, 
because they would have obstructed the view of Devil's Gate. 
This is BLM land that we were standing on.
    The Church was very cooperative, moved the water tank, 
lowered the pitch of the roof so it would not obstruct the 
view. And then last year in 2001, they encouraged the Wyoming 
Archeology Department to come and excavate for the Seminoe 
Trading Post. They are currently reconstructing Seminoe's 
Trading Post adjacent to the archeology site, rather than on 
top of it, as has been reported.
    I feel there needs to be some amendments to this bill to 
make it palatable for all of us. One, the acreage needs to be 
smaller and specific to the Cove.
    And as Congresswoman Cubin has indicated, there needs to be 
a return to the State of Wyoming, particularly Natrona County, 
and that would be that any money that would be paid for the 
land would come back, and, of course, I want it to come back to 
the Historic Trails Center, and for Wyoming, and for the state.
    The return from the sale of Martin's Cove, if the bill 
passes, would certainly help this. I think it's very important 
that Martin's Cove legislation be amended, and it also acts as 
a guarantee. And I thank you very much for your time.
    [The prepared statement of Ms. Kennell follows:]

               Statement of Edna Kennell, Casper, Wyoming

    Good morning Chairman Radanovich and Committee members. I am very 
honored to be invited to testify this morning. My name is Edna Kennell. 
I reside at 1661 Nottingham Dr., Casper, WY 82609. I am testifying as 
an individual. I am a student of history and supporter of cultural 
tourism with the benefits it brings to Wyoming, Natrona County, and the 
City of Casper. I am currently employed by the National Historic Trails 
Center Foundation.
    We all benefit economically, as The Church of Jesus Christ of 
Latter Day Saints celebrates their history. The Hand Cart Center, 
located approximately 60 miles from Casper, opened in May of 1997 and 
has had 75,000 to 80,000 visitors per year. When we use published 
figures from the Department of Tourism, this equates to $11,220,000.00 
added to the Wyoming economy. Natrona County's yearly share of tax 
dollars, from these figures, is $591,000.00. (See Exhibit A).
    Ten years ago, when we first started the National Historic Trails 
Center, many of the same people in this room (except the Historians) 
knew little if anything about the hand cart disaster or triumphs. When 
we were making presentations to the public asking for tax money and 
talking about a ``cold room'' to tell this hand cart story, many 
thought we were crazy. Very few people were interested in this story, 
nor knew of the cove's location, but now claim it as their own.
    The Sun family was a good steward of the land when it was used for 
ranching only, but there was little public access to the cove. Since 
The Church of Jesus Christ of Latter Day Saints purchased the ranch, 
they allow anyone and everyone to enter the cove at any time. They have 
done an excellent job of maintaining the site and willingly share their 
history.
    Three years ago elders from the church appeared before the Natrona 
County Planning Commission about building some additional structures 
and a water tank on their deeded land. Only 3 or 4 individuals, 
including myself, cared enough to object to the placement of the water 
tank & buildings that would have obstructed the view of Devil's Gate 
from the Bureau of Land Management rest stop on Highway 220. The church 
was very cooperative and moved the water tank and lowered the roof 
lines so they would not affect the view of Devil's Gate. Last year, 
2001, they encouraged a State archeology dig on their property to 
determine the location of the Seminoe Trading Post. They are currently 
reconstructing the Seminoe Trading Post, adjacent to the dig. The 
church is paying for this expensive project. This will add to Wyoming's 
history and encourage more visitors to the ranch.
    As indicated in previous testimony, the Historic Trails do not go 
into the cove but are across the river from the cove. There is no 
positive indication this is a prehistoric Indian site.
    There needs to be some amendments to this bill, H.R. 4103. The 
acreage should be smaller and specific to the known cove and/or the 
presumed cove. There needs to be a guaranteed access for perpetuity. 
Congresswoman Cubin is correct in asking for something that will 
benefit Wyoming, particularly Natrona County. Since B. L. M. has stated 
that it would trade land for ``comparable value''; rather than land, I 
would ask that the money paid for the cove be earmarked for the 
National Historic Trails Center. The center, a public/private 
partnership, will be owned and operated by the Bureau of Land 
Management.
    The return from the sale of Martin's Cove will help operate the 
National Historic Trails Center. If Congress approves the sale of 
Martin's Cove to the L.D.S. Church; I believe there are many people in 
Wyoming who would like to see these funds come back to Wyoming, into 
our trails center. Therefore, I think it's very important that the 
Martin's Cove legislation be amended in this respect. It would benefit 
the center and everyone else and could be considered of comparable 
historic value. The center will be completed and open August 9, 2002.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9434.002
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9434.003
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9434.004
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9434.005
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9434.006
                                 

    Mr. Radanovich. Thank you very much, Ms. Kennell, and 
appreciate your testimony.
    Mr. Lloyd Larsen, welcome to the Committee, and if you 
would speak directly into the mike, that would be very helpful.
    Mr. Larsen. Mr. Chairman, can you hear me all right there?
    Mr. Radanovich. Depends on whether they can.
    Mr. Larsen. I can't see them.
    Mr. Radanovich. A little louder.

           STATEMENT OF LLOYD LARSEN, LANDER, WYOMING

    Mr. Larsen. Mr. Chairman, Members of the Committee, I'm 
Lloyd Larsen from Lander, and I'm extremely honored to be here 
testifying before the distinguished Committee today. I'm the 
co-owner of Triple L. Inc., a construction and general 
contracting company, primarily serves the petroleum industry 
with 20 employees. I am also currently president of the 
Riverton, Wyoming Stake of Church of Jesus Christ of Latter-day 
Saints. We have 2,587 members in our congregation in Fremont 
County. This stake has been actively involved for the past 
decade in--in locating, restoring, and preserving historical 
sites along the Mormon Trail.
    I'm really pleased today to have the opportunity to present 
this Committee petitions from nearly 6,000 members of the LDS 
faith of Wyoming in favor of legislation that would convey 
Martin's Cove to the public.
    I am also in possession of over 40 letters that have 
recently been entrusted to me to pass on to Representative 
Barbara Cubin, and also copies to be presented to this 
Committee that also support legislation conveyed as planned.
    These petitions and letters are from Wyoming citizens, all 
of whom are old enough to vote, from over--from 101 different 
communities throughout the state. They reflect strong support 
of the Wyoming LDS community for this legislation, and so I, on 
behalf of the LDS Church members, we'd like to thank House 
Resources Chairman Jim Hansen for providing the legislative 
vehicle that would allow the Congress to review the ownership 
issue of Martin's Cove.
    We would also like to join in expressing our appreciation 
to Representative Barbara Cubin for mandating that we have a 
public hearing here in Wyoming. We appreciate that very much.
    Speaking for myself, although I am very pleased with the 
direction of the concept of this bill, I would also welcome 
legislative changes that would keep the proceeds of Martin's 
Cove in Wyoming, and that would allow public access, and would 
also visit other issues as they arise.
    It's interesting, as I was studying the other day, I 
noticed a comment that President George W. Bush made in his 
inaugural address. He quoted, ``Church and charity, synagogue 
and mosque lend our communities their humanity and they will 
have an honored place in our plans and in our laws.''.
    I hope that would be true.
    This trail that we have laid to get to this legislative 
point has been very clear and very distinct. We didn't wake up 
last fall and decide that we were going to approach Jim Hansen 
in Utah. We don't do that in Wyoming. We did not go to Jim 
Hansen, decided we was going to have a--try to do a legislative 
reverse sweep to get Martin's Cove into ownership.
    This process started in 1996 with the purchase of the Sun 
Ranch. Shortly after the purchase of the ranch, our intention 
was to try and obtain ownership of that piece of property owned 
by the Federal Government. It was indicated to us by the 
representatives of the Bureau of Land Management, that indeed 
could be done through a land trade. Our understanding at that 
time was that we could trade lands that were relative in any 
number of ways to the use of the general public.
    It was later determined that we should find other 
properties that are historically significant to propose a 
trade. We searched, we found three different properties. One 
property we couldn't come to terms with the owner on. The other 
property we come to terms with the owner on until he found we 
was going to trade it to the BLM. I've just been cut off.
    [Technical difficulties with the sound system.]
    Mr. Larsen. Going back to my point, Mr. Chairman, we've 
made offers on several pieces of land. The one piece, as I was 
indicating before, the owner was willing to sell it until he 
found out we was going to trade it to the BLM. We did, however, 
find a piece of property that the Church found was historically 
significant to the Church because it's also relative to a site 
where the Willie Handcart Company was. It also had other 
significant properties attached to it, the Seminoe Cutoff, 
which was offered to the BLM. They turned that trade--It was--
The Seminoe Cutoff was offered as well as permanent access, 
which is public access at 6th Crossing. That was turned down by 
the Bureau of Land Management, which is what forced us to come 
to this point.
    [The prepared statement of Mr. Larsen follows:]

      Statement of Lloyd Charles Larsen, Co-Owner, Triple L. Inc.

    Mr. Chairman, and members of the committee: I am Lloyd Larsen of 
Lander, Wyoming. I am honored and pleased to appear before this 
distinguished committee today.
    I am the co-owner of Triple L. Inc., a construction and general 
contracting business that primarily serves the petroleum industry with 
20 employees. I am also the President of the Riverton, Wyoming Stake of 
The Church of Jesus Christ of Latter-day Saints (LDS). There are 2587 
members of our faith in this stake, located in 10 different 
congregations throughout Fremont County.
    I am pleased to present to the subcommittee petitions from nearly 
6,000 members of the LDS faith in Wyoming in favor of legislation to 
convey Martin's Cove to the Church. These petitions are from Wyoming 
citizens who are all of voting age from 101 communities throughout the 
state. They reflect the strong support of the Wyoming LDS community for 
this legislation. And so, on behalf of thousands of LDS church members, 
we thank House Resources Chairman Jim Hansen for providing a 
legislative vehicle to enable the congress to review the ownership 
issue of Martin's Cove.
    We also join in expressing appreciation to Representative Cubin for 
insisting that public hearings on the bill take place in Wyoming. 
Speaking for myself, while I am pleased with the direction and concept 
of this bill, I would also welcome legislative changes that would keep 
the proceeds of the Martin's Cove sale in Wyoming, that ensure the 
public access to the Cove, and that take into account other views.
    The intent of this testimony is to try and help the hearing 
committee understand the sacrifice of time, labor, equipment and money, 
that has generously been donated by the citizen's of this great State 
who are members of The Church of Jesus Christ of Latter-day Saints in 
the development of Mormon Handcart Visitors Center (``Visitor's 
Center'') which includes the development of Martin's Cove (``Cove'') so 
that the public could have access to this site. I would also like to 
inform the committee of the efforts of the Church to identify, research 
and acquire other lands that have historic value that could be traded 
to the BLM for Martin's Cove.
    For five years prior to the Church's purchase of the Sun Ranch 
members of the Church living in the geographic area surrounding 
Martin's Cove had been involved in a project that required researching 
the names and events associated with the Martin and Willie Handcart 
Companies. In that process we were able to obtain copies of journals 
that had been written by the handcart pioneers, or their descendants. 
We not only became acquainted with the events surrounding the saga of 
the Willie and Martin Handcart Companies, we come to understand the 
spirit, human kindness, compassion, stamina, character, and sacrifice 
of those handcarts pioneers. We also come to understand to some degree 
the voluntary sacrifice, courage, character, and compassion of those 
who came to rescue the stranded handcart companies. As we came to know 
these people, a bonding took place. Many members of the LDS Church in 
Wyoming are descendants of these pioneers who crossed the plains, and 
they have come to recognize the sacrifice their forefathers made to 
believe and worship the way they wanted. Other LDS citizens in the 
State found that they could relate to the sacrifices of the handcart 
pioneers because, like these early pioneers they too made sacrifices to 
embrace this religion.
    Because of this relationship the members of the Church were excited 
whenever an opportunity arose that allowed them to eulogize the 
handcart pioneers. In 1991 members of the Church here in Wyoming 
erected three monuments along the Oregon/Mormon trail dedicated to the 
members of the Martin and Willie Handcart Companies. The time, 
equipment, and materials for the casting of the bronze plaques, 
building the interior structure of the monuments, hauling rock from a 
BLM quarry in LaBarge, Wyoming 200 miles away, and the masonry work on 
the plaques were all donated.
    We were thrilled when we learned that the negotiations for the 
acquisition of the Sun Ranch had been successful in the fall of 1996. 
Up to this point access into the Cove had been limited because you had 
to drive across private land prior to accessing the public land where 
the Cove is. After the Church purchased the ranch, a meeting was held 
at the old Sun ranch house to determine how we could make this property 
an interpretive site that would be conducive to the history of the 
handcart legacy, and maintain the influence of the Sun family who the 
property was purchased from. At this same meeting it was also noted 
that 1997 was the sesquicentennial of the vanguard company of Mormon 
pioneers crossing the plains and entering the Salt Lake valley. Because 
of this historic celebration it was decided that every effort should be 
made to make the handcart historic site accessible by May of 1997.
    In order to have the area ready for visitors a number of things had 
to be done, which included:
     1.) The bridge across the Sweetwater River needed to be replaced. 
The existing bridge was an old railroad car that was too narrow. This 
bridge had also been set too close to the river and would sometimes get 
covered with water when the river flooded.
     2.) Some sort of visitors center needed to be created to tell the 
story of the handcart pioneers and of the Sun family.
     3.) A parking lot needed to be made.
     4.) There weren't any public restrooms.
     5.) With the ranch being there for many decades, there was need 
to ``clean up, pick up, paint up, and fix up.''
     6.) We needed to establish more water sources for drinking water. 
Water wells needed to be drilled.
     7.) The access road from the highway into the visitor's area 
needed to be improved.
     8.) A walking trail needed to be designed and constructed from 
the visitor's center into Martin's Cove.
     9.) A footbridge needed to be placed over the Sweetwater River up 
closer to the Cove.
    10.) Interpretive signs needed to be designed, constructed, and 
installed along the trail to help people better understand the events 
in the area.
    11.) Campgrounds with water and restrooms needed to be established 
to accommodate those groups and individuals that wanted to camp in the 
area.
    12.) A picnic area around the Visitor's Center would be needed for 
visitors. It was anticipated that because the closest town of any size 
was 50 miles away, many visitors would be bringing their lunches with 
them.
    This meeting was held in the middle of September, and it was 
determined that we should be ready for visitors on May 1st, which gave 
us seven and a half months to be ready. The biggest obstacles were the 
coming on of winter and labor. When the members around Wyoming found 
out that there was a need for help the response was incredible.
    It was decided that the historic ranch house which was in a sad 
state of repair should be repaired and made into the visitors center 
which would not only protect the inherent atmosphere of the ranch, it 
would also help establish a setting for the visitors. Volunteers who 
were familiar with the building trades removed the old floor and 
excavated under the bottom log of the structure by hand. They leveled 
the walls and then poured a new concrete floor. Where the logs had 
rotted out they were replaced with other logs salvaged from other 
demolition.
    The bridge over the Sweetwater River was unique. Members from the 
Riverton area were asked if they could build a bridge. They answered 
yes, and were given the assignment to build it. In reality none of them 
had ever built a bridge before. The existing bridge was an old railroad 
car that was 8 ft. wide and 90 feet long. They decided to try and find 
another railroad car with the intentions of putting the two together 
side by side. A civil engineer in Casper who was a member of the Church 
found out about the project and offered his services. Another railroad 
car was found in Oregon and shipped to the site. Both railroad cars had 
been in wrecks and were no longer straight and true. It was decided 
that pilings should be driven into the ground on both sides of the 
river for the railroad cars to set on. The pilings were driven and the 
cars set with an additional space between them to get the desired 
width. There were several members that were welders who volunteered 
their time to repair the damaged railcars and to join the two cars 
together with structural steel. Some of these men took their vacation 
time to work 12-14 hours a day on the bridge throughout the month of 
October and part of November. It gets cold in Wyoming during those 
months. In addition to the welders there were orthodontists, grandmas, 
housewives and school age children who would show up to do whatever 
they could to make sure the bridge was completed. Some had so much 
clothing on to stay warm that they had a hard time moving around. 
Because the new bridge was set at a higher elevation than the old 
bridge, new approaches had to be made, which took over one thousand 
yards of dirt and gravel. A businessman in Casper who sells 
construction equipment heard that the approaches were being 
constructed. He called and inquired what equipment was being used and 
what was needed. The next day he sent out a large rubber tired loader, 
a compactor, and a motor grader all to be used free of charge. The 
motor grader and compactor were left there until May to be used as 
needed. A lot of people were needed to help put the planking on the 
bridge. The turnout was so good that there were more people than was 
needed. A group of women who had come to assist with the planking 
wanted to know what else could be done. They were pointed to a pile of 
rocks, which needed to be carried underneath the bridge and placed 
around the bridge pilings to help prevent erosion. There were 15 yards 
of rocks in that pile all weighing between five and ten pounds each. 
That group of women, one of whom was pregnant, carried the whole 
fifteen yards of rock by hand under the bridge, and placed them around 
the pilings. Thousands of hours of labor and equipment went into the 
building of this bridge so that all who wanted access into the Cove 
would have the ability to cross the river in a manner more favorable 
than the handcart pioneers. The civil engineer who helped on the bridge 
estimated the cost of the bridge with all that was done would have 
exceeded $200,000.00.
    The Church expressed to the Bureau of Land Management (BLM) a 
desire to develop an access into the actual Cove where the Martin 
Handcart Company camped. The Bureau of Land Management accepted the 
opportunity to develop the site, but didn't have the funds or the 
manpower at that time to accomplish all that needed to be done. The BLM 
developed and provided a blueprint for an interpretive trail that 
started near the Visitor's Center and went across Church owned 
property, to Federal land. Once the trail was on Federal land it went 
up into the Cove, from the Cove it then back onto Church property 
ending up back at the visitor's center. The total distance of trail 
that needed to be built was over 2.5 miles. 1.25 miles of the trail was 
to be built on Federal land. An archeological study needed to be 
conducted on the BLM land. Again the BLM didn't have the funds or the 
manpower to do the study at that time. The Church funded the study. 
Brigham Young University's archeology department came and identified 
two archeological sites. It was decided by the BLM that the trail could 
be constructed to the Cove without damaging the integrity of the 
archeological sites. The Church and the BLM built the portion of the 
trail that was on Church land with the BLM providing the materials and 
some equipment, the Church provided labor and equipment. When the trail 
got onto Federal land the trail became a narrow walking path. The 
design of the trail required that a geo-tech material be laid down 
where the tail was going to be and then gravel placed over it to a 
depth of two to three inches. Landscaping timbers were to be placed 
along the edges of the trail to keep the gravel in place. Again the BLM 
provided the materials but didn't have the labor resources. The members 
of the Church volunteered to provide labor and equipment for the task 
of building the trail. Men, women, and children of all ages spent much 
of late March and early April laying the geo-tech material on the 
trail, hauling the gravel and installing the landscaping ties. The 
trail was too narrow for dump trucks to drive on in order to spread 
gravel on the trail, so the volunteers brought their ATV's and hooked 
small garden trailers to them and hauled the gravel on to the trail one 
quarter of a yard at a time. A majority of the high school and jr. high 
school students that were volunteers spent their spring vacation that 
year building a trail that would allow all who desired, an opportunity 
to walk into Martin's Cove. The BLM recorded that an excess of 7,000 
man-hours of labor were donated in the construction of that trail.
    After the trail was completed the Church researched and designed 
information that could be placed on interpretive signs for people to 
read as they went into the cove. These signs tell the story of the 
Martin Handcart Company. They had the signs made and installed them 
along the trail.
    Pinedale, Wyoming is at least 240 miles from Martin's Cove. It is a 
rural community, where ranching, timber, and minerals are the backbone 
of the economy. When the members of the Church in that community found 
out about all that was going on at Martin's Cove, they wanted to be a 
part of it. When asked if they could build picnic tables, the Pinedale 
people volunteered for the job. They went back to Pinedale where one of 
the individuals owns a sawmill. They cut the lumber from native logs 
and made picnic tables that will hold a truck up. They scheduled the 
delivery of the tables to the Visitor's Center on the day when they 
knew that there was a lot of work scheduled to be going on around the 
Visitor's Center. They left their homes in Pinedale at 4:00 a.m. so 
that they could get to the visitor's center by 8:00 a.m. The left early 
in order to deliver the tables and have enough time left to work a full 
day. They set the tables and then found that the new public restrooms 
constructed by the Church was supposed to have log siding put on it 
which had been made from the logs of an old barn. They along with 
members from Dubois, and Lander who also had experience working with 
logs made sure that the installation of the log siding on the restrooms 
was completely finished that day. They left on the four and a half 
drive home that night knowing that they had made a contribution to the 
comfort of those that would come to visit Martin'' Cove.
    The examples that I have given of the efforts made by the members 
of this Church are intended to illustrate the relationship that we have 
with the handcart pioneers, because of the legacy that they left 
behind. All of the tasks that have been identified were completed in 
time for the dedication of the Visitor's Center on May 3, 1997. We here 
in Wyoming want to preserve and protect this site for generations to 
come. It is a place where all that are residents of Wyoming and all who 
are visiting can come to learn about this important event in the 
history of the Church and the history of the west. It is a place where 
we can learn a little more about who we are.
    After the acquisition of the Sun Ranch, Church representatives 
started negotiating with the BLM it an effort to trade other lands the 
Church owned for the land Martin's Cove was at. Initially it was 
thought that we could exchange some other deeded land on the ranch for 
the Cove. The BLM told us that a piece of property that was as 
historically significant as Martin's Cove would have to be found, 
evaluated, and agreed upon before a trade could take place. The Church 
had a representative travel along the Oregon/Mormon trail across the 
entire state of Wyoming looking for property that was historically 
significant. Once those properties were found an inquiry was made to 
see if the properties were for sale. Three properties were located with 
the possibility of meeting the requirements, and that the current 
owners were willing to sale.
    The first site identified was for sale, but not at a price that we 
felt was reasonable. Negotiations with the owner were conducted over a 
substantial period of time without reasonable terms being reached.
    The second site was a section of property on the Sweetwater River 
known as 6th Crossing. This is an area where all pioneers crossing on 
the Mormon, California, and Oregon trails crossed the river for the 6th 
time. This area is particularly significant in the history of the LDS 
Church because of the events that involved the Willie Handcart Company, 
which got caught in the same winter storm as the Martin Company. This 
property also contains a section of the trail known as the Seminoe 
Cutoff. The Seminoe Cutoff was an alternative route around some of the 
rougher portions of the trail going over South Pass. The Church was 
able to purchase this property. The Church wanted to keep the portion 
of the property at 6th Crossing because it has a comparable importance 
to Martin's Cove. The Church did however offer the Seminoe Cutoff and a 
permanent easement into 6th Crossing for access to the trail as it 
crosses over the Sweetwater River. The BLM declined this offer 
indicating that it didn't ``meet the test''.
    The third site identified was a piece of property that the BLM was 
interested in, and the owner was initially interested in selling the 
property. The owner however decided against the sale in favor of 
keeping it for personal use.
    After we reevaluated our situation, it was our judgment that 
further comparable sites did not exist. We approached the BLM 
representatives to inquire if the knew of any other sites that they 
would be interested in. They indicated that they weren't aware of any 
at that time. It was at this point that we entertained the option of 
pursuing legislative avenues. The BLM representatives were the first 
ones that we informed of this intention. This was done in an effort to 
be forthright in our dealings with them.
    Mr. Chairman, this concludes my testimony today. I would be please 
to respond to questions you may have.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Larsen. At this point we'll 
open up the panel for questions for the folks up here. And who 
would like to begin? Barbara?
    Mrs. Cubin. Yes. Thank you, Mr. Chairman. I'm going to 
start by asking Edna Kennell a question. The five trail centers 
that you have been so dedicated to, and thank you for--
    Ms. Kennell. Can I correct that? There's six trails.
    Mrs. Cubin. Pardon me. Oh, six trails, excuse me. That's 
right. The other one is where my mother goes for other 
services.
    At any rate, thank you very much for the work that you have 
done. I believe that we will have a first class center here in 
Wyoming, and I really do believe it will help tourism. And I 
also know it wouldn't have happened had you not been so devoted 
to the cause.
    Ms. Kennell. Thank you.
    Mrs. Cubin. Thank you. I also think that the partnership 
between Federal, state, local and private entities is one of 
the best examples of how government can work for the betterment 
of the people, so people can get what they want from their 
government, and participate. That's how you can tell what's 
important to someone, if they're willing to put their money, 
and their labor, and their time into a project, then you know 
that it's important to them. And those are something that I 
think the government ought to invest in.
    If we amend this bill, which I will attempt to do, will you 
tell me--Well, first of all, will you explain the various--Will 
you explain the partnership, and what--how the agreement 
developed, and what entity did what, and then how the money 
would be used on the trail center that's going to be built in 
Casper?
    Ms. Kennell. Well, Barbara, of course, you know we couldn't 
have done it without your help because you helped us very much.
    When we first started there was some questions about 
whether this would really happen. And we had to go to the State 
of Wyoming, and we got a grant from the State of Wyoming. We 
also got some money from the city of Casper, and land from the 
city of Casper in that partnership. It was after those things 
had happened that we went to the Bureau of Land Management, or 
we came together, it was a mutual agreement, and we got 
together and we signed a memorandum of understanding; to create 
this, that we needed to bring the Bureau of Land Management to 
the table, which would help us build the center. They would 
actually pay for the building that the exhibits were going to 
be put in, and then the non-profit, which consisted of city and 
private funds, would bring moneys in to pay for the exhibits 
that go in the interior. And, of course, you played a big role 
in that.
    So this Committee, because they approved, we were able to 
go ahead and ask for money to build the building.
    Mrs. Cubin. How would the proceeds, if this sale were to 
occur, affect the center?
    Ms. Kennell. One of the things that the nonprofit has to do 
is we have to provide an endowment to pay for maintenance and 
exhibits on the interior. Again, these are old objects and what 
have you, but we're not a museum, we're an interpretive center. 
These are life-size interactive exhibits, and they're quite 
expensive to maintain. We would like to see the proceeds from 
this land go to help for the endowment fund for the center.
    Mrs. Cubin. Thank you. Mr. Jolley, I'd like to first of all 
make a remark regarding your testimony, about history, 
replacing history, like the book that you have, the history of 
the Sun Ranch and now it's being replaced by the history of the 
Mormon Trail to settle west and the handcarts coming across the 
west.
    Those are not exclusive of one another. Both--and--the 
Baptists--I think you had a reference to some public lands and 
Baptist involvement. Those are not exclusive. All of those 
things happened, and so when history is written, history will 
be written about the Sun Ranch, and about the handcarts, and 
about the history of Wyoming. So I really think that--that that 
argument is not a good one.
    Being realistic, every complaint that you have about the 
bill won't be able to be amended into the bill, and I, of 
course, don't know if the bill will pass or if it won't, but 
how it's going to work is we'll go back to Washington--Help me, 
you correct me if I'm wrong, Mr. Chairman. There will be a 
Subcommittee mark-up where amendments will be offered by me and 
who knows who else, and then it will go to the Full Committee--
OK. Yes, a hearing before the Full Committee, and then a mark-
up to amend the bill. I would be offering amendments, and I 
imagine other people will too.
    If it should pass could you prioritize for me out of the 
list that you've made, the ones that are the most important for 
you, that you view to be the most important?
    Mr. Jolley. Thank you, Mr. Chairman, Mrs. Cubin. I don't 
think there's anything that could be put in this bill to cure 
it with any amendments. I think there is a viable alternative, 
and it should be really explored more fully. I don't know if 
you know, but I probably have studied more land exchanges and 
sales of public land in Wyoming in the last 7 years than 
anybody in this state. And I would like to say that, you know, 
I've been cited in both the Land and Water Reviews, prestigious 
document, the Denver Post, the High Country News, the Seattle 
Times, and throughout almost every newspaper and television 
station in this state because of the knowledge I have to do 
with the land exchange.
    And I think the viable alternative is to go back to the 
drawing board, and go back to the exchange process, and let the 
LDS Church sit down more fully with the BLM, the local BLM. 
It's my understanding on good authority, I've gotten this from 
the BLM, that there's only been one formal proposal for an 
exchange. And if we look at our 1976 land--Federal Land 
Management Policy Act, our preferred method to dispose of our 
lands is through the exchange process.
    Now, if we allow--If we allow, after one formal proposal, 
that one person could go and start asking for a select bill 
because they have enough political clout or whatever, then 
we're going to disintegrate the exchange process. And I think 
the real alternative, you know, the LDS Church in the United 
States is about one of the most wealthy churches in both money 
and land--
    Mrs. Cubin. Mr. Jolley, my time has run out. I'd like to 
allow you to go on, but, you know, earlier in the hearing it 
was listed as exchanges with other organizations. I don't even 
think they were exchanges, I think they were purchases, has 
been put into the record, and my experience has been that 
every--every time an exchange is offered there is nothing but 
controversy about the exchange, and a lot of the controversy 
results from early on misinformation being put--being put out 
there. So people don't exactly understand the terms of this.
    I know that the BLM was prepared to do this, to transfer 
this land to the LDS Church. They were--They were prepared to 
do that without this legislation. So I don't think it's right 
that the BLM hasn't been involved, and that there was only one 
discussion. I believe there's been a lot of that. And, Mr. 
Chairman, forgive me for going over my time.
    Mr. Radanovich. You're forgiven. Anything, Mr. 
Faleomavaega?
    Mr. Faleomavaega. Thank you, Mr. Chairman. Just to ask Mr. 
Underbrink, you did mention something about, there also seems 
to be some objection to the fact that Martin's Cove may have 
some prehistoric Indian sites. Do you think the LDS Church or 
yourself would be amenable, that a proposal be added into the 
bill, proposed bill, to make sure that proper excavations ought 
to be taken to explore, if this is considered a prehistoric 
Indian site?
    Mr. Underbrink. I don't think that's necessary at all. The 
Cove itself--We're not traveling in the Cove itself when we're 
going out there. We're traveling on the sand dune hill around 
the top of the Cove. The prehistoric, if there are any historic 
Indian sites, they're not even going to be touched or trampled 
on down there. Like I say, I think every Cove in Sweetwater has 
got probably the same significance as this one does when it 
comes to historic and prehistoric Indian sites.
    Mr. Faleomavaega. Somehow the magic figure of 1,640 acres 
is what seems to be the amount of acres that Martin's Cove is 
comprised of. Can you tell me if this is a true acreage that 
make up Martin's Cove, or is this smaller? Do you think we can 
live with something smaller than 1,640 acres?
    Mr. Underbrink. I definitely do. What the Church is doing 
there is protecting the view shed to the west, and it's a 
beautiful view shed, but it doesn't necessarily have to have 
that much acreage in the Cove. That's my opinion.
    Mr. Faleomavaega. So if we're talking about 640 acres, it 
really is also to provide protection, as a matter of water 
sheds, or making sure there's no environmental harm, what we've 
done to the area in question?
    Mr. Underbrink. They're trying to keep the people on the 
trail, and that's the big thing out there. The trail that 
they've already constructed through the top of the Cove, as 
long as they do that, the environmental damage should not be 
great, although, remember, we've got thousands of people going 
on this trail now. We've got many handcarts kids pulling 
handcarts. It's quite an experience to watch all this, and the 
Church will have to watch to make sure that the ground is not 
environmentally damaged.
    Mr. Faleomavaega. I want to note for the record, Mr. 
Chairman, I think it's also good for our friends to understand 
that just because a bill is proposed does not necessarily mean 
it's going to pass. And every 2 years thousands of bills are 
proposed in the Congress, and only a couple hundred get passed, 
so I wanted to let you know that deliberation is very 
difficult. It's not an easy process. And this is why we're here 
holding this hearing, to make sure that there's enough public 
input in the process.
    Mr. Jolley, I respect your opinion, that you do not trust 
the LDS Church if it were ever to have ownership of Martin's 
Cove. What if the law does assure there is public access for 
the public to visit Martin's Cove with no restrictions by the 
LDS Church?
    Mr. Jolley. Thank you, Mr. Chairman, Representative 
Faleomavaega.
    Mr. Faleomavaega. You can just call me John Wayne, I'll be 
satisfied.
    Mr. Jolley. Going to your question of if you want public 
access that was written in, it still would not give the public 
control, and I would have a problem with that. You see, one of 
the problems we have in this valley, and I've talked just a bit 
about Mr. Rehberg's question, about how this land never became 
a public--you know, was public, but the good lands were taken 
along, along the river, and now the LDS Church owns those 
lands. I believe we need to maintain as much public control and 
ownership of every bit of land along this corridor.
    Mr. Faleomavaega. You mentioned that the concern about the 
dissolution of Sweetwater Valley. Is Martin's Cove part of 
Sweetwater Valley?
    Mr. Jolley. Certainly it--Excuse me, Mr. Chairman, and, Mr. 
Faleomavaega.
    Mr. Radanovich. Nice try.
    Mr. Jolley. Excuse me.
    Mr. Faleomavaega. No--
    Mr. Jolley. Yes, it definitely is. Just the entire--If you 
go up on the Cove, you look down from the Cove, it's one of the 
most picturesque scenic views. There are other valleys on the 
trails.
    Mr. Faleomavaega. I'm not going to usurp your question 
about the authority.
    You said the Baptists have also been here seven, 8 years 
previous to the members. Have the Baptists ever made official 
claims similar to the experiences that the earlier Mormons went 
through, like what happened in Martin's Cove, and also the pass 
with the handcarts? Have the Baptists ever made any expression 
of concerns about their members? Did they go through any 
tragedy like what the Mormons went through at Martin's Cove?
    Mr. Jolley. Mr. Chairman, Representative Faleomavaega, all 
through that history of that corridor a lot of people died. We 
had Indians--And if you want to know the truth, if you look at 
that Cove, this is probably one of the main places where you 
probably have archeological and Indian tragedies that took 
place. But the Baptists have not made a claim, and this is what 
I do not want--I do not want now, the Baptists to say they were 
a church group going through and they have a sacred site, and 
they have should be entitled to Devil's Gate.
    We do know in Wyoming 10 years ago, and I live in the Big 
Horn Basin, and we had the Indian tribes, American Indian 
tribes wanted to control the access and control to the Medicine 
Wheel, and that was on the Big Horn Mountains. And they claim 
those as sacred sites, and I have no doubts that they did, but 
the most vocal opponents, Senator Simpson, and one of our 
leading LDS, I believe he was a stake president at that time, 
Cal Haggart, and they did not want to set this precedence, of 
having people be able to come up and get control of our public 
lands because it was a sacred site.
    Mr. Faleomavaega. If I could ask Mr. Larsen, I get a very 
strong impression the Martin's Cove issue as we now discuss it 
by means of legislation, it was not something that was 
initiated from Salt Lake City, was it not?
    Mr. Larsen. That is correct. The research and the efforts 
to try and make these historical sites for the legacy of 
members of this Church and also for the public in general, was 
initiated here in Wyoming.
    Mr. Faleomavaega. So this has not just come about 
yesterday? I understand that the Martin's Cove was under the 
official Registrar of Historic Sites I think since 1977. Am I 
correct? I may be wrong on my history.
    Mr. Larsen. That is correct. If my understanding is 
correct, the person that nominated it was a person by the name 
of Paul Henderson who was with BLM at the time. We started 
locally from--from within the vicinity of Martin's Cove through 
research and making efforts to inform the public of the 
significance of this site to the LDS Church in 1990, 1991.
    Mr. Faleomavaega. And by the experiences that the members 
of the LDS Church went through, as part of the trail system, 
this is just your story that you want to share with the rest of 
the world? You're not prohibiting other organizations, other 
churches, or anybody else from having their own sense of 
interpretation of their experiences when they went through what 
is now known as the California Oregon Trails?
    Mr. Larsen. It was interesting, as we designed the 
Visitors' Center of Martin's Cove, that is one of the--We 
didn't want to be exclusionary in any of the things that we've 
done. That's why we did it, one route to the Visitor Center, 
and you have to bear in mind if you've not been there, that 
Visitor Center isn't huge. We dedicated one room to the Sun 
family, and also to the Oregon and California and Pony Express 
trails that passed through there. We later created, at our own 
expense, a museum dedicated to the people who lived on the 
Sweetwater River, ranchers in that vicinity, artifacts and 
relics from their families and their ranches that are there for 
public--for the general public. It's a very nice presentation.
    Mr. Faleomavaega. I think this is important, Mr. Chairman. 
This was not something that was initiated from outside, this is 
the good citizens who happen to be members of the Church here 
in Wyoming, that did all the work, and did all the addition, 
did the history, and went through all this. And I just want to 
assure Ms. Kennell, I will certainly support Ms. Cubin's 
amendment that whatever funds obtained, if the bill passes, 
should come to the Trail Center here in Wyoming.
    Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you, Eni.
    Mr. Underbrink, Mr. Jolley, Ms. Kennell, Mr. Larsen, thank 
you for your testimony today. There are no other questions from 
the Committee, so if you will kindly excuse yourselves, we 
appreciate it, and move on to our last panel for this evening, 
Panel No. 1, Ms. Katharine Kimball, who is Director of the 
External and Intergovernmental Affairs, Department of Interior 
has made it here. Glad that you made it, Kathy.
    Ms. Kimball. Thank you.
    Mr. Radanovich. Let you get settled there. Ms. Kimball, I 
would ask that you make all the effort to speak directly into 
the mike as we want to make sure everybody in the room hears. 
If hands go up, I'll let you know you're not speaking loud 
enough. So, welcome. We're glad that you made it, and if you'd 
like, we'd enjoy hearing what you have to say.

    STATEMENT OF KATHARINE KIMBALL, DIRECTOR, EXTERNAL AND 
   INTERGOVERNMENTAL AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR

    Ms. Kimball. Thank you, Mr. Chairman, Members of the 
Committee. My name is Katharine Kimball. I go by Kit Kimball. 
And I'm here today to represent Secretary Gale Norton, 
Department of the Interior.
    I would like to thank you for the opportunity to discuss 
H.R. 4103, the Martin's Cove Land Transfer Act.
    As you may have heard, the cornerstone of Secretary 
Norton's mission for the Department of Interior is what she 
calls the four Cs; cooperation, consultation, communication, 
all in the service of conservation.
    It is with this direction from her, and in the spirit of 
cooperation, that I am here today to work with this Committee, 
and this community on the issues surrounding this bill.
    The Department of Interior recognizes the unique 
significance of Martin's Cove to the Church of Jesus Christ of 
Latter-day Saints.
    We also understand the public's desire for continued use 
and access of the area due to the very significant historic 
trails adjacent to and going through this unique area.
    We strongly support the intent of this proposed 
legislation, which enables the Church to manage the site's 
historic resources for public benefit through educational and 
recreational opportunities.
    I'd like to discuss three issues regarding the public 
access issue.
    First, we believe that it's important to pursue an approach 
that ensures continued public access, and resource protection 
within Martin's Cove in perpetuity.
    Given the existence of the public trails on the site, we 
recommend that before any transfer of title, occurs a 
conservation easement should be placed on the lands proposed in 
advance to protect the existing geological and historical 
resources in the Martin's Cove area.
    In addition, a perpetual public access easement should be 
considered as part of any conveyance that would allow for 
continued public access to the Martin's Cove area.
    The Department would also like to recommend inclusion of a 
provisionary clause to the Federal Government in order to 
ensure that the site will be protected should the Church desire 
to discontinue ownership or management of the area in the 
future.
    Second, the Department believes the legislation should 
attempt to direct revenues received from the transaction back 
into the resource in order to further benefit the public's 
appreciation and enjoyment of the historic trails and 
facilities in the area.
    Terms such as these would allow for private ownership by 
the Church and provide for long-term protection of the 
resources, and retain the critical public access to the 
improvements at the site.
    Third, the Department is concerned that the lands conveyed 
represent the objectives of the Church and protect the public 
interest. Toward that end we will work with the Committee to 
ensure that the proposed conveyance is confined to the smallest 
area compatible and along with the proper care and management 
of the resources that we are seeking to protect.
    Now, I would like to mention just a few points with respect 
to the appraisal process.
    We find that an appraisal of this unique historic property 
should be based on the conventional appraisal standards to 
provide a very sound basis for its value.
    The proposed legislation should include procedures, that 
state clearly the process for a smooth conveyance of the 
property, and we'd be pleased to work with you in developing 
some of that clarification.
    In addition, it's unclear whether the Federal Government, 
in this case the Bureau of Land Management, will be reimbursed 
for past improvements in addition to receiving the fair market 
value for the lands. This should be clarified to ensure a fair 
reimbursement to the taxpayers.
    Finally, as is standard practice, the mineral estate should 
be reserved to the Federal Government.
    In conclusion, if the legislation can be crafted further 
with these elements in mind, the Department believes that this 
legislation could provide an opportunity, and positive benefits 
for the public, while accommodating the historical and cultural 
interests of a private group or foundation.
    With that, I'd like to thank you for allowing me to be here 
on behalf of the Department. I am happy to answer any 
questions.
    [The prepared statement of Ms. Kimball follows:]

 Statement of Kit Kimball, Director of External and Intergovernmental 
                Affairs, U.S. Department of the Interior

    Thank you for the opportunity to provide testimony regarding H.R. 
4103, a bill to direct the Secretary of the Interior to transfer 
certain lands in Natrona County, Wyoming, to the Corporation of the 
Presiding Bishop, of the Church of Jesus Christ of Latter Day Saints 
(``Church''). H.R. 4103, the Martin's Cove Land Transfer Act, involves 
1,640 acres of public lands managed by the Bureau of Land Management 
(BLM) located 60 miles southwest of Casper, in Natrona County, Wyoming. 
The Department supports the goals of H.R. 4103. However, the Department 
has some concerns with this bill and would like to work with the 
Subcommittee to address them.
Background
    Martin's Cove was listed on the National Register of Historic Sites 
in 1977. It is significant because in 1856, Mormon pioneers traveling 
west pushing handcarts were trapped by a severe early winter snowstorm 
at Martin's Cove and it is estimated that between 135 and 150 of the 
pioneers perished. Martin's Cove is located near the confluence of four 
National Historic Trails, the California, Oregon, Mormon Pioneer and 
Pony Express trails, which all pass within a mile of the Martin's Cove 
site. All of these trails are administered by the National Park 
Service, in cooperation with the Bureau of Land Management, under the 
provisions of the National Trails System Act. The 1,640-acre parcel 
proposed for conveyance by this legislation contains portions of the 
Tom Sun Ranch National Historic Landmark and is contiguous to private 
lands. The site includes unmarked emigrant graves, as well as historic 
emigrant camp locations and some archeological remains of Native 
American prehistoric sites.
    Martin's Cove is an important part of the history of the westward 
emigration across 19th century America, and it is particularly 
important for the descendants of the Mormon pioneers who traveled 
through it. It is a symbol of the extreme hardship suffered by many who 
sought a better way of life by traveling across the continent. For 
many, the Mormon Handcart Tragedy stands out as a single devastating 
event that shaped a culture that traveled along the Oregon, the Mormon 
Pioneer, the California, and the Pony Express National Historic Trails.
    The Department recognizes the unique significance of Martin's Cove 
to the Church and understands and supports the intent of this proposed 
legislation to enable the Church to manage the site's historic 
resources through educational and recreational opportunities for all 
members of the public.

Public Access and Benefits
    First, the Department believes it is important to pursue an 
approach that ensures continued public access and resource protection 
within Martin's Cove, in perpetuity. Given the existence of public 
trails on the site, we recommend that, before any transfer of title, a 
Conservation Easement be placed on the lands proposed for conveyance to 
protect the existing geological and historical resources in the 
Martin's Cove area. In addition, a perpetual public access easement 
should be considered as part of any conveyance that would allow for 
continued public access to the Martin's Cove area. The Department would 
also recommend inclusion of a reversionary clause to the Federal 
Government in order to ensure the site will be protected should the 
Church desire to discontinue ownership or management of it in the 
future.
    Second, the Department believes the legislation should attempt to 
direct revenues received from the transaction back into the resource in 
order to further benefit the public's appreciation and enjoyment of the 
historic trails and facilities in the area. Terms such as these would 
allow for private ownership by the Church, provide long-term protection 
of resources, and retain public access to the improvements at the site.
    Third, the Department is concerned that the lands conveyed 
represent only those that are absolutely necessary to accomplish the 
objectives of the Church and the public. Toward that end, we will work 
with the Committee to ensure that the proposed conveyance is confined 
to the smallest area compatible with the proper care and management of 
the resources sought to be protected.
Appraisal Process, Funds, and Mineral Estate
    An appraisal of this unique historic property should be based on 
conventional appraisal standards to provide a sound basis for value. 
The proposed legislation includes procedures that may need 
clarification to allow for a smooth conveyance of the property and we 
would be pleased to work with the Committee on these.
    Additionally, it is unclear whether the Federal Government (BLM) 
will be reimbursed for past improvements in addition to receiving fair 
market value for the lands, and this should be clarified to ensure a 
fair reimbursement to the taxpayers. Finally, as is standard practice, 
the mineral estate should be reserved to the Federal Government.
Potential Precedent-Setting Issues
    The Department is concerned that H.R. 4103 could be viewed as 
creating a precedent for conveying ownership of historic or prehistoric 
public sites that are deemed sacred to a particular group or culture. 
We are concerned and want to ensure that this legislation not establish 
a precedent for similar land transfers in the future, and we want to 
work closely with the Committee to address this concern.
Conclusion
    If crafted with these elements in mind, the Department believes 
this legislation could provide absolute positive benefits for the 
public while accommodating the historical or cultural interests of a 
private group or foundation. Thank you for the opportunity to provide 
testimony on H.R. 4103. This concludes my testimony and I will be 
pleased to answer any questions the Subcommittee may have.
                                 ______
                                 
    Mr. Radanovich. Thank you for being here. I'd like to open 
it up to questions. Mrs. Cubin.
    Mrs. Cubin. Thank you, Mr. Chairman. I'd like to start 
with, thank you for being here, Kit. I know you probably are a 
little stressed trying to get here with the plane schedules 
that we have to deal with here in the west, and that's another 
issue for another day.
    I want to talk about the appraisal issues on Martin's Cove. 
Some people have suggested that the appraisal for the land 
should occur before the bill is enacted rather than after. With 
all of the discussions that the BLM and the Church have had 
over the past 5 years regarding land transfer, does the BLM 
have a solid idea of what this land would be worth? And I'm not 
asking you what the number would be, but do you have a solid 
range that you believe you know the land is worth?
    Ms. Kimball. Madam Congressman, my understanding is that we 
have a very good sense of the value with respect to what we 
looked at as far as exchange, that is what would be equivalent 
value for exchange. I would have to look into the fact on what 
an actual dollar amount would be.
    Mrs. Cubin. Would you agree this negotiation having gone on 
for 5 years, that there really has been a lot of communication 
between BLM and the Church?
    Ms. Kimball. Yes.
    Mrs. Cubin. Rather than just one meeting?
    Ms. Kimball. My understanding, this has been ongoing 
discussions for over 5 years, as you said, and there's been 
quite a bit of debate on numerous potential exchange 
opportunities, so, yes, my understanding is that it's been a 
very thorough process.
    Mrs. Cubin. Your testimony mentions that the cost of the 
lands should include the cost of the improvements to Martin's 
Cove that the BLM has made. Are you aware of exactly how much 
money has been spent by the BLM to improve Martin's Cove site 
with better trails and interpretative signs?
    Ms. Kimball. I do not have that number, and again I will be 
happy to submit that to the record.
    Mrs. Cubin. That's OK, because, you know, they aren't exact 
at this point, I'm sure, anyway.
    You said also in your statement that you thought the money, 
proceeds of the sale should go back into Martin's Cove rather 
than into the Trail Center or other development of the trail 
system in the state of Wyoming. Do you have any idea what the 
income would be, and how do you compare that with what the cost 
would be? Because it's my belief, very strongly, that the 
income would greatly exceed the cost to maintain and develop 
Martin's Cove, whereas we have a lot of trails in Wyoming that 
could benefit from the amount of money that will be generated. 
So I would like you to take that message back to the Secretary 
should this--should this bill pass.
    And I also want to be on the record saying that I do 
believe that the historic value of the area rather than just 
the value of the similar grazing lands ought to be included in 
the price, if the legislation passes.
    Thank you, Mr. Chairman. I yield back my time.
    Mr. Radanovich. Thank you, Mrs. Cubin.
    Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I want to thank 
Ms. Kimball for her statement, for appearing before our 
Subcommittee here this afternoon.
    I note with interest there are several recommendations, 
Miss Kimball, the Department has made for purposes of improving 
the proposed legislation. One, you mentioned about adding a 
provisionary clause so if the Church no longer has a use, that 
the ownership of the land in question will be reverted back to 
the Federal Government. I don't see that as being unreasonable. 
Do you?
    Ms. Kimball. No, sir.
    Mr. Faleomavaega. You also noted here that some suggestions 
about the--to be derived from the use of the land, as Mrs. 
Cubin stated earlier, a question about how do you make the 
appraisal. As you know there's an appraisal for grazing, and 
ranchers have access to the Federal Government. My 
understanding that some 250,000 visitors have trekked through 
the Martin's Cove. That has been an economic benefit to the 
good people of Wyoming in excess of 11 million dollars, as I 
understand it. Will that also be taken into consideration as 
far as what--defining what an appraised value for this land in 
question is?
    Ms. Kimball. Well, certainly in looking at equivalent 
exchange of lands a value must be determined. The historical 
value, and the significance of the benefits of that use should 
be included in the appraised value of the site.
    Mr. Faleomavaega. Now, do you find it very easy to find 
equivalent lands for sale, not just the LDS Church, any other 
organization, that an exchange can be made? Does it have to be 
made just to lands, Federal lands here in Wyoming, or can it be 
from California, or any other state?
    Ms. Kimball. No, I think we have the ability to look west 
wide. We're fortunate to have many rich historical artifacts, 
and areas in this country, and I think we'd look west wide at 
what the values would be, equivalent values for historical 
sites.
    Mr. Faleomavaega. I note with interest too that Mr. Jolley 
made the comment to the effect that the LDS Church is a very 
wealthy church, but I don't see this as any relevance to the 
situation here where the whole incident, happening of the 
experiences of those members of the LDS Church here in Wyoming, 
placing some value of the lives of 200 men, women and children 
who perished from starvation, and from the bitterness of the 
cold, I don't think you can ever place any monetary value to 
this. And I would certainly like to suggest that if there's 
anything that is more touching as to why the leaders of the LDS 
Church have expressed very serious interest is because of that, 
if not for any other reason.
    Now, your closing statement, Ms. Kimball, you said 
something about a real concern about not establishing a 
precedent. Now, I don't know if I'm pronouncing the word, is it 
precedent or president?
    Ms. Kimball. Precedent.
    Mr. Faleomavaega. Precedent.
    Ms. Kimball. Precedent.
    Mr. Faleomavaega. You indicated concern about establishing 
a precedent. Are you suggesting here that this isn't the first 
instance that something like this has ever transpired in terms 
of purchase or conveyancing of Federal lands to any 
institution, whether it's a church or a foundation, or a city, 
or county government?
    Ms. Kimball. Mr. Congressman, Mr. Chairman, it would not be 
the first by any means. There have been many sales and 
purchases in the past, exchanges, transactions of every kind, 
so we are wanting to look very carefully at how, on behalf of 
the public, on behalf of the taxpayers, we convey sites that 
may have significant and sacred values to one element of 
society, but be balanced with a broader public interest. So in 
that context we're trying to look at this very carefully to 
understand the uniqueness of this site and to make certain that 
we are doing this in the broad public interest. We don't want 
to set a precedent, that for a small special interest, as 
significant as it may be, that it is the only reason that 
something like this is, is set aside, purchased or sold.
    Mr. Faleomavaega. I'm very confident, Ms. Kimball, for us 
sitting on this side of the aisle, that we are going to be very 
careful and deliberate, to make sure that if there ever is, or 
will be a conveyance of land belonging to the public, that it 
will not be done in any way that the public's interest will not 
be taken into serious consideration. I want to assure the 
people of the State of Wyoming it will also be the same for 
this proposed legislation.
    Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you, Mr. Faleomavaega.
    And Mr. Rehberg.
    Mr. Rehberg. Let me begin by thanking the audience for your 
hospitality. If I get up and leave, I have to catch a plane to 
Montana, and I know the Chairman does as well.
    I thank you for the hospitality that you've showed us in 
Casper too. The only thing that would have been nice is if the 
hotel would have had warm water for our showers. You all are a 
tough lot, and I admire you.
    If I might, Ms. Kimball, I won't ask you the specific 
number, although I'd like to know it, but philosophically one 
of the things that's occurred within the Department of 
Interior's authority is the continual addition of 
responsibilities. I speak most specifically to my own state and 
a new monument designation that was created on the Missouri 
River. We're all in competition for dollars. Philosophically, 
is there any way you can fulfill, with the total amount of 
dollars necessary to create the broad public interest 
presentation of those, or is part of your perhaps support for 
this in that you can't begin to afford all that we would like 
to do to present to the broad public interest these historical 
designations, monuments and such?
    So, philosophically, do you agree with moving it out to an 
entity such as the Church who do show an interest in spending 
the money to create that presentation?
    Ms. Kimball. Mr. Chairman, Mr. Congressman, yes. We find, 
unfortunately, that in trying to be better stewards of 
taxpayer's dollars, we're not always able to stretch those 
dollars as far as we'd like. We believe this bill is an 
opportunity for the public to be able to work with the Church, 
and the community. This will move the project along more 
quickly and provide a quality interpretation of the site and be 
able to provide educational opportunities for the public at the 
site by partnering with the Church we would not be able to 
provide some of those same resources, certainly not in the near 
term, for this area for use by the public.
    Mr. Rehberg. I want to go on record for thanking the 
administration for its willingness to consider alternatives 
such as this. You've got much more experience than I, but I 
haven't seen them use it a lot, various administrations over 
the years, and it's really wonderful that this administration 
is willing to make these kinds of consideration. I wish others 
had in the past.
    Thank you.
    Mr. Radanovich. Thank you very much, Mr. Rehberg. Any other 
questions for this witness? Eni?
    Mr. Faleomavaega. Mr. Chairman, I would be remiss if I did 
not express my deepest sense of appreciation not only to the 
distinguished Congresswoman representing the great State of 
Wyoming, Mrs. Cubin, but also for the good people here in 
Wyoming. It's been my privilege and I am very honored to be 
here, and certainly feel accepted, and wanting very much to 
hopefully, whatever we do with the proposed legislation, it 
will be in the interest of the good people of Wyoming. And, 
again, thank you all for your kindness and your hospitality.
    Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you very much.
    If there are no other questions of the witness, then, Ms. 
Kimball, you are excused, and I appreciate you being here, and 
appreciate the value of the information that you are able to 
provide for the Committee.
    If there are no other questions, this does end the public 
hearing. And I too would like to add to my appreciation of the 
people of Wyoming that made this a very positive and wonderful 
experience.
    You've got a beautiful state, and some pretty darned good 
people in it. So I appreciate the ability to come meet with you 
today.
    And with that I will close the hearing, and hand the gavel 
over to Barbara, and she will take it from there.
    As Mr. Rehberg had mentioned, both of us have a plane to 
catch, and again I just want to thank you very much for being 
an excellent audience and being a part of this process we call 
government. Thank you very, very much.
    Mrs. Cubin. Mr. Chairman, on behalf of myself and everyone 
here, we sincerely appreciate your extra effort in this piece 
of legislation. We know that you have gone an extra mile for 
us, and we appreciate it very much. Likewise to you, 
Congressman Rehberg. Thank you.
    Mr. Radanovich. My pleasure. Thank you, Barbara.
    [Whereupon, at 12:29 p.m., the Subcommittee was adjourned.]

                                   - 

</pre></body></html>
